Office of Inspector General


U.S. Department of State
and the   Broadcasting Board of Governors




Semiannual Report to the Congress

          October 1, 1999, to March 31, 2000
Table of Contents
             Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1
             Congressional Activities and OIG Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      6

             U.S. Department of State
                     Special Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                     Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                     Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                     Security and Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 27
                     Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    29
                     Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                36
                     Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              37
                     Appendix 3: Savings and More Effective Use of Resources
                           Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
                           Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
                     Appendix 4: Resolution of Reports and Recommendations
                           Previously Reported Significant Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . 41
                           Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             42

             Broadcasting Board of Governors
                     OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
                     Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                52
                     Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              52
                     Appendix 3: Savings and More Effective Use of Resources
                           Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
                           Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
                     Appendix 4: Resolution of Reports and Recommendations
                           Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             54
             Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     55
             Index of Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 57




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                                                 59 .
Executive Summary
                                                During this semiannual reporting period, the Office of Inspector General
                                                (OIG) focused its oversight efforts on significant challenges facing the
                                                Department of State including: the Departments expenditures of the
                                                Emergency Supplemental Appropriations for security enhancements, the
                                                export licensing process and technology transfer issues, implementation of
                                                the Government Performance and Results Act, and the Y2K certification
                                                process.
                                                    Following the 1998 bombings of the U.S. Embassies in Nairobi and
                                                Dar es Salaam, Congress appropriated $1.5 billion for the Department to
                                                cover the costs incurred by those bombings and begin security improve-
                                                ments at diplomatic missions abroad. The Department created a separate
                                                fund for managing these emergency supplemental appropriations. OIG
                                                established an Emergency Supplemental Oversight Committee to assess
                                                the Departments management controls and systems that account for and
                                                manage these funds.
                                                    OIG found that the Department has provided senior level attention to
                                                security issues, including the direct involvement of the Under Secretary for
                                                Management and the Security Oversight Board. The Department has ade-
                                                quately managed resources to improve security and established systems
                                                capable of appropriately accounting for and managing the emergency sup-
                                                plemental appropriations obligated and liquidated domestically. However,
                                                OIG found that reports on domestic program funds obligated to date includ-
                                                ed fund transfers as well as obligations, and the account coding structure
                                                was complex and confusing.
                                                     Despite pressure to procure security-related goods and services quick-
                                                ly, the Department has followed procurement and property management
                                                regulations. At overseas posts, most officials were satisfied with the De-
                                                partments response to requests for security-related projects, but indicated
                                                that better communications at headquarters was needed. The Department
                                                is making considerable progress in filling 391 new security positions estab-
                                                lished with these funds which should help address the staffing shortages to
                                                support overseas security.
                                                     OIG completed its role in assisting the Department to meet the year
                                                2000 challenge facing its information technology infrastructure. As reported
                                                in our previous Semiannual Report to the Congress, OIG assisted in estab-
                                                lishing a process through which the Department could certify the Y2K
                                                compliance of its mission-critical systems. As of March 31, 2000, OIG had
                                                evaluated and provided comments to the Department on 56 mission-critical
                                                application certification packages.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                       1 .
     The Inspector General also tes-     selected issues, OIG assessed the               to simplify the costly and cumber-
tified before Congress on several        conduct of foreign relations, particu-          some procedures that reduce AITs
Y2K issues, including the Depart-        larly the skills and abilities of senior        ability to operate effectively.
ments continued efforts to certify      management and the availability and
                                                                                              OIGs inspection of the U.S.
all mission-critical systems for Y2K     use of appropriate authorities and
                                                                                         Embassy in Manila, Philippines,
compliance, assessments of host          processes. During this semiannual
                                                                                         found the mission doing an excellent
country preparedness, and the con-       reporting period, OIG inspected
                                                                                         job of building support across the
tent of the Y2K readiness assess-        posts in Asia, Ukraine, North Afri-
                                                                                         range of U.S. interests. OIG con-
ments provided by the Department         ca, the Middle East, and Haiti.
                                                                                         cerns centered on severe financial
in consular information sheets.
                                              OIGs inspection of the Ameri-             and management problems in the
OIG also stressed the need for a
                                         can Institute in Taiwan (AIT) found             U.S. Employees Association, and
post-Y2K assessment to identify
                                         the management much improved                    significant problems in consular op-
lessons learned and best practices
                                         since the 1993 inspection. OIG                  erations, including the renovation of
that may be applicable to govern-
                                         found that the Taipei office was                a poorly laid out physical plant.
ment agencies and private sector
                                         doing a good job of advancing U.S.
organizations.                                                                                OIG found Embassy Kiev,
                                         policies, promoting economic and
                                                                                         Ukraine, to be a large, well-run post
                                         trade interests, and handling the
                                                                                         that effectively implemented a com-
                                         delicate political-military relation-
                                                                                         plex, long-term U.S. policy, with
                                         ship. OIG noted however, that
                                                                                         U.S.-funded programs totaling more
Improved Conduct                         AITs unique status and the nature
                                                                                         than $300 million each year. OIG
of Foreign Relations                     of its relationship with the U.S.
                                                                                         found that the chancery compound
                                         Government posed a number of
Drawing on the inspections of                                                            was too small to accommodate the
                                         management challenges for the De-
overseas missions and domestic                                                           size of the mission and was a haz-
                                         partment, and recommended ways
bureaus, and on in-depth audits of                                                       ard to the health and safety of those




                                                Best         Practices
   Contract Administration Procedures                            parties involved in contract review and approval
   In response to a December 1999 OIG audit                      processes.
   report, the Office of Acquisitions Management                 Vehicle Registration
   agreed to a recommendation to strengthen                      At Embassy Tunis, Tunisia, the lack of vehicle
   contract acquisition and administrative proce-                specification information hindered registration
   dures and management controls. The Office                     of the personal vehicles of new arrivals. Getting
   of Acquisitions Management issued a Quality                   the appropriate information from the automo-
   Assurance Plan that provides a clear and                      biles American manufacturers was time consum-
   concise reference for the requirements of                     ing and delayed the issuance of license plates.
   contract review and approval. This document                   The posts general services officer persuaded
   sets out in chart form the type of action being               Tunisian customs officials that vehicle specifica-
   considered, who must review it, who can ap-                   tion information readily available on the internet
   prove it, and the statutory or regulatory author-             was sufficient and, as a result, vehicles are now
   ity for the action. The Quality Assurance Plan                registered and license tags are issued quickly,
   constitutes a best practice and should prove                thus making the vehicles available for use
   to be a valuable guide for all Department                     shortly after newcomers arrive at post.




  2 .                                Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
who worked there. OIG noted                     terms of what can be achieved and               readiness goals as FY 1999 data
that the public diplomacy section               what resources are required. This               becomes available. Additionally,
employed innovative programs, in-               review is further warranted by the              OIG is continuing to build a Results
cluding generating positive media               rapidly expanding U.S. effort to co-            Act component into selected audits
attention to U.S. positions on                  operate with Haitian authorities to             and inspections. Thus far, our work
Kosovo and ably administering                   block the growing traffic of illegal            has addressed the need for better
an exchange program that sends                  narcotics through Haiti to the Unit-            performance information in the De-
over 1,000 Ukrainians to the United             ed States. The consular section                 partments Bureau of Personnel and
States each year.                               was strong and, with good support               Bureau for Economic Affairs.
                                                from the Bureau of Consular Af-
     In Rabat, Morocco, OIG found                                                                   OIG evaluated the policies and
                                                fairs, effectively overcoming a large
the embassy doing excellent work                                                                practices used to recruit Foreign
                                                inherited backlog of immigrant visa
in advancing U.S. interests, which                                                              Service specialists and found that,
                                                cases while managing a heavy load
included stability, prosperity, and                                                             although the Bureau of Personnels
                                                of current applications. Widely scat-
democracy, and in refocusing policy                                                             Performance Plan contained initia-
                                                tered facilities and numerous physi-
initiatives from multilateral issues,                                                           tives that could improve recruiting, it
                                                cal security shortcomings seriously
such as the Middle East Peace Pro-                                                              was silent on establishing specific
                                                complicate Embassy Port-au-
cess, to bilateral issues. OIG noted,                                                           goals for reducing the lengthy re-
                                                Princes ability to meet current
however, that a mission reporting                                                               cruitment process. OIG identified
                                                security standards.
plan that incorporated the strategic                                                            the need to establish benchmarks to
goals of the Mission Performance                                                                make the recruiting process more
Plan, was an urgent requirement.                                                                timely and incorporate these bench-
OIG found the consular section in                                                               marks in the Bureau of Personnels
Casablanca overburdened and                     Better Alignment of                             plans.
struggling to manage a growing                  Fiscal and Human                                     OIGs report on the Depart-
workload. Attention to policy issues,           Resources with US                               ments effort to reduce trade barri-
reporting, and outreach activities              Foreign Policy                                  ers in the telecommunications
suffered as a result. OIGs review              Priorities                                      industry found that fundamental
of the Broadcasting Board of Gov-
                                                The Government Performance and                  weaknesses in the Departments
ernors (BBG) Transmitting Station
                                                Results Act of 1993 (Results Act)               performance planning limited its
in Morocco showed it to be well
                                                requires that agencies set goals for            ability to effectively manage, coor-
managed with improving efficiency.
                                                program performance and measure                 dinate, and report on its progress
Diplomatic readiness was also im-
                                                results against those goals to help             in reducing trade barriers. OIG
proved because of upgrades to the
                                                improve efficiency and effective-               recommended that the Bureau of
embassys telecommunications
                                                ness and to increase the account-               Economic and Business Affairs,
systems.
                                                ability of Federal programs. In                 with guidance from the Depart-
    At Embassy Port-au-Prince,                  response to that law, the Depart-               ments core strategic planning team,
Haiti, OIG found that continuing                ment of State has developed strate-             develop priorities for the national
controversy on U.S. intervention in             gic and annual performance plans.               interest of Economic Prosperity and
1994 and Haitis prospects for de-              Congress has requested that In-                 align the performance and opera-
mocracy and economic develop-                   spectors General assist with over-              tional plans accordingly.
ment indicate a need for another                sight of agency implementation of
policy review of U.S. interests in              the Results Act.
                                                    OIG is selectively validating
                                                and verifying performance data
                                                under the Departments diplomatic




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                 3 .
          More Effective,                                 ICASS services, opt-outs may not
          Efficient, and Secure                           provide the most cost-effective ar-
          Operations and                                  rangement to the U.S. Government.
          Infrastructures                                      The National Defense Authori-
          OIG oversight under this strategic              zation Act for Fiscal Year 2000
          objective included reviews of the               required the Inspectors General of
          International Cooperative Adminis-              the Departments of Commerce,
          trative Support Services (ICASS)                Defense, Energy, and State cooper-
          system, the export licensing pro-               atively to review the export licens-
          cess, and financial and procurement             ing process for foreign national
          audits of several programs. OIG                 visitors. The objective of the review
          also conducted security oversight               was to determine whether the poli-
          inspections, which are fully dis-               cies and procedures for the transfer
          cussed in the classified annex to this          of information at Federal laborato-
          report, as well as audits on overseas           ries and agencies to foreign nation-
          telephone security systems and card             als (deemed exports) from countries
          access control systems.                         of concern adequately protect mili-
                                                          tarily sensitive technologies.
               OIG reviewed posts progress
          in selecting the most cost-effective                 The Inspectors General found
          service providers under the ICASS               that Federal agencies lack of
          system. OIG also examined the                   awareness and understanding of
          Departments progress toward be-                deemed exports could damage na-
          coming a more cost-effective ser-               tional security if militarily sensitive
          vice provider and reviewed whether              technology is released to inappropri-
          significant cost savings have been              ate end users. The Inspectors Gen-
          achieved under ICASS, including                 eral concluded that few Federal
          how opt-outs, agencies pulling out            laboratories or agencies applied for
          of particular ICASS services, have              deemed export licensing applica-
          affected overall U.S. Government                tions in FY 1999 and that the level
          costs. In the short period since the            of compliance with deemed export
          inception of ICASS, posts have                  regulations was unknown.
          implemented the basics of ICASS,                     In response to a related require-
          resulting in improved transparency              ment included in the National De-
          of costs. However, OIG found that               fense Authorization Act for Fiscal
          significant cost savings have not yet           Year 2000, OIG evaluated activities
          resulted from ICASS. Although                   of the Department of State to
          some agencies have indicated that               counter illicit technology transfer to
          they reduced costs by opting out of             countries and entities of concern.
                                                          The assessment was performed in
                                                          coordination with Offices of Inspec-
                                                          tor General of the Departments of
                                                          Defense, Commerce, Treasury, and
                                                          the Central Intelligence Agency.




4 .   Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
OIG found that the Departments                 Greater Adherence                                    In light of OIGs responsibility
visa screening program has been                 to Fundamental                                  to detect and prevent fraud, OIG
instrumental in identifying visa                Principles Governing                            issues Management Implication
applicants who might be a concern               Professional and                                Reports (MIRs) when a systemic
with respect to illicit technology              Ethical Conduct                                 weakness is identified in a bureau-
transfer and has resulted in useful                                                             specific program or operation. In
information for the U.S. intelligence           OIGs mandate is to prevent and                 response to investigations related to
community, identification of poten-             detect waste, fraud and misman-                 the theft of passport fees, OIG is-
tial visa fraud, and the denial of              agement. Specific allegations or                sued two MIRs recommending that
visas.                                          other information indicating possible           the Department:
                                                violations of law or regulation are
    OIGs security oversight review                                                                ensure that all passport agen-
                                                investigated by OIG special agents
of the Departments card access                                                                 cies comply with internal control
                                                supported by other OIG offices as
control systems found that no single                                                            procedures regarding the handling
                                                appropriate. During this semiannual
office had been designated with                                                                 of cash and receipts, and
                                                period, OIG conducted investiga-
lead responsibility for managing the            tions in several areas including visa              permit only authorized individu-
systems, and as a result, important             fraud, false claims, falsified certifi-         als access to the cashier area.
policy requirements were not ade-               cates, employee misconduct, and                     OIG issued another MIR rec-
quately applied. OIG made several               theft.                                          ommending that the Department
recommendations to improve man-
                                                     OIG also participated in public            advise all contracting agents and
agement of the systems, including
                                                outreach activities related to pro-             posts of the importance of comply-
that the Department should place a
                                                fessional and ethical conduct. In               ing with appropriate contracting
greater focus on computer security
                                                October, the Inspector General par-             procedures to avoid potential pitfalls
aspects of those systems.
                                                ticipated as a member of the U.S.               in any subsequent administrative or
     In another security oversight              delegation to the 9th International             judicial proceeding.
review, OIG assessed the Depart-                Anticorruption Conference held in
ments efforts to reduce the risk of            South Africa. The conference ad-
compromise for operations and na-               dressed developing a code of ethics
tional security information discussed           for government officials in countries
or processed at overseas posts.                 addressing corruption. In March,
OIGs findings confirmed that the               the Inspector General participated
Departments ability to protect sen-            in a Worldnet conference, Good
sitive information transmitted on               Governance and Anti-Corruption
telephone systems could be im-                  Techniques. The broadcast was
proved. OIG recommended steps                   transmitted to the Middle East,
the Department should take to en-               Europe, and Africa.
hance telephone systems security
overseas.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                 5 .
Congressional Activities and OIG Outreach
                  Testimony
                  The Inspector General provided the following testimony to Congress during
                  this semiannual reporting period on the operations related to OIG and the
                  Department of State.
                       On October 13, the Inspector General submitted a written statement
                  for the hearing record to the Senate Special Committee on the Year 2000
                  Technology Problem for the hearing titled, International Preparedness:
                  What in the World Will Happen? The written statement provided the com-
                  mittee with an update to testimony previously presented before the commit-
                  tee by the Inspector General last July. The statement addressed the State
                  Departments continued efforts to certify all mission-critical systems for
                  Y2K compliance; host country preparedness; and the content of the Y2K
                  readiness assessments provided by the State Department in consular infor-
                  mation sheets.
                      On October 21, the Inspector General testified before the House Com-
                  mittee on International Relations on Year 2000 computer threats to U.S.
                  interests abroad. The testimony provided the committee with a comprehen-
                  sive overview of the Inspector Generals Y2K oversight, business contin-
                  gency planning, and the review of Y2K remediation efforts by the State
                  Department and by countries that host U.S. embassies and consulates.
                      On March 1, the Inspector General provided the House Committee on
                  Appropriations, Subcommittee on Commerce, Justice, State and Related
                  Agencies with a statement on OIGs budget request and justification for FY
                  2001 funding. The statement discussed current and planned work in the
                  context of OIGs strategic plan and outlined areas for program and opera-
                  tions efficiencies. The statement also presented the activities of the OIG
                  including audits, investigations, and inspections of worldwide operations and
                  programs of the Department of State and international broadcasting under
                  the BBG.




                  Briefings
                  During this semiannual reporting period, OIG representatives met with
                  Members of Congress and professional staff to share the results of OIG
                  reviews and discuss OIGs oversight efforts related to: the Results Act,
                  the FY 1999 Emergency Supplemental Appropriations, strategic priorities
                  and annual planning, overseas staffing, international broadcasting, embassy
                  security, the Lisbon Exposition, global Y2K issues, the Organization of




6 .           Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
American States United Nations                       In December, the Inspector                 agencies and offices of inspectors
Joint Mission in Haiti, the Good Fri-           General conducted training on Glo-              general in performance measure-
day Peace Accord, and narcotics                 bal Readiness and the Year 2000                 ment. On January 28, the Inspector
assistance programs in Colombia.                Computer Problem at a seminar                   General received the Distinguished
                                                sponsored by the American Law                   Federal Leadership Award at the
                                                Institute, American Bar Association             Conference and was recognized for
                                                Committee on Continuing Educa-                  promoting excellence in the finan-
OIG Outreach                                    tion. The Inspector General dis-                cial management oversight of
                                                cussed the oversight role of the                Federal agencies by the Inspector
During this semiannual reporting                OIG in assessing the State Depart-              General community and for distinc-
period, OIG representatives partici-            ments preparedness in addressing               tion in promoting auditing standards
pated in several outreach activities            the Y2K computer problem. She                   and accountability in governments
relating to the role of Inspectors              also discussed the implications of              around the world.
General, anticorruption and rule                Y2K-related computer problems on
                                                                                                    The Inspector General partici-
of law issues, performance mea-                 the global economy and trade, and
                                                                                                pated on March 3 in a Worldnet
surement, and the Y2K computer                  host country preparedness in key
                                                                                                broadcast, Good Governance and
problem.                                        sector areas of energy, transporta-
                                                                                                Anticorruption Techniques: The
                                                tion, telecommunications, financing,
     The Inspector General partici-                                                             Bureaucracy. The broadcast was
                                                banking, and health care.
pated as a member of the U.S.                                                                   transmitted to the Middle East,
delegation to the 9th International                 Also in December, the Inspec-               Europe, and Africa in both English
Anticorruption Conference held                  tor General addressed the Greater               and French. Questions were ad-
in Durban, South Africa, October                Washington Society of Certified                 dressed from broadcast recipients
10-15. Conference participants                  Public Accountants Government                   in Chad, Rwanda, and Guinea and
included over 1,600 representatives             Accounting and Auditing Committee               covered reform initiatives to fight
from 134 countries. The conference              on the role of Offices of Inspectors            corruption at the public and private
discussed the need to develop a                 General in performance measure-                 sector levels, donor corruption, and
code of ethics for government offi-             ment and management. The Inspec-                assistance available to nations
cials in countries addressing cor-              tor General discussed the role of               seeking guidance.
ruption. Several participants in                agencies and OIGs in performance
                                                                                                     On March 7, the Inspector
the conference requested U.S.                   measurement, including obstacles
                                                                                                General spoke on a panel titled
asistance in establishing an Office             they face in collecting and analyzing
                                                                                                Audit Challenges for the 21st Cen-
of Inspector General in their re-               data. She also discussed the ap-
                                                                                                tury at the 20th Annual Internal
spective countries.                             proach that this Inspector Generals
                                                                                                Auditing in Government Conference
                                                office has taken in assessing the
     The Inspector General was in-                                                              in Washington, D.C. Her remarks
                                                State Departments performance
terviewed on the program World                                                                 addressed the need for strength-
                                                planning, and data collection and
Economics in Review on interna-                                                                ened information security at a time
                                                analysis efforts.
tional Y2K issues and the impact                                                                when critical data and information
that Y2K failures could have on                     On January 27, the Inspector                resources are at risk of attack from
U.S. citizens. The program was                  General made a presentation at the              both internal and external sources.
broadcast in Europe and Asia by                 Association of Government Ac-                   The Inspector General discussed
the International Herald Tribune                countants 11th Annual Leadership                the role of OIG auditors in the over-
Television Network on October 2.                Conference held in Washington,                  sight of information security issues.
                                                D.C., on performance measures                   In addition, the IG presented infor-
                                                and what can be done to make                    mation on performance measure-
                                                them more accurate. The Inspector               ment and noted the success that
                                                General also discussed the role of              OIGs have demonstrated in their




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                7 .
use of different approaches in re-         Independent Statutory Law                       comprehensive overview of the In-
viewing agency implementation of           Enforcement Authority for OIGs.                 spector Generals Y2K oversight
the Results Act. She also raised the            Draft legislation on the                  and review of Y2K remediation ef-
challenges of measuring the results        Federal Passenger Use Efficiency                forts by the Department and by
of the OIGs own oversight in ways         Act of 2000 (Home-to-Work Trans-                countries that host our embassies
that go beyond traditional output          portation).                                     and consulates. Specifically the In-
measures.                                                                                  spector General discussed:
      Also in March, OIGs Director                                                              the results of recent OIG vis-
of Congressional and Media Rela-                                                           its to eight key countries to collect
tions participated on a U.S. assess-       Y2K Challenge                                   Y2K readiness information from
ment team, sponsored by the U.S.                                                           embassy personnel and host country
Department of Justice, which trav-         OIG was actively engaged with the               representatives. At these locations
eled to the Republic of Georgia.           Department and its embassies over-              OIG met with host country Y2K
The teams mission was to make             seas, assisting them in meeting the             program managers, representatives
recommendations concerning the             Y2K challenge. A particular OIG                 from key infrastructure sectors, and
establishment of an Office of In-          focus was Y2K readiness of host                 private sector officials to discuss
spector General in the Republic of         countries where the United States               their respective Y2K programs and
Georgia, an external monitoring            maintains a presence. On October                to share information;
board to oversee activities of the         13, 1999, OIG prepared a written                      the need for the Department
Inspector General, and standards of        statement for the record to the Sen-            to continue collecting information
conduct for investigators. At the          ate Committee on the Year 2000                  from its overseas posts concerning
conclusion of an intense weeklong          Technology Problem for the hearing              host country Y2K readiness and the
review and meetings with key gov-          titled International Preparedness              potential for Y2K-related failures.
ernment officials and nongovern-           for Y2K. The written statement                 The continuation of the data collec-
mental groups, the team presented          provided an update to previous testi-           tion effort will facilitate decision
its findings and recommendations to        mony given to the committee in July             making on Y2K issues by U.S.
the Republic of Georgias Council          1999. The statement addressed the               Government personnel both here
of Justice.                                Departments continued efforts to               and abroad and keep the public in-
                                           certify all mission-critical systems            formed of potential global Y2K
                                           for Y2K compliance; business con-               problems;
                                           tinuity planning; and the content of
                                           the Y2K readiness assessments                         the need for more detailed
Comments on                                                                                information on host country Y2K
                                           provided by the Department in the
Proposed Legislation                                                                       readiness to be made available to
                                           consular information sheets. The
                                           testimony also gave an update on                the public to provide a clearer pic-
OIG provided comments and pro-
                                           continued assessments of host                   ture of the potential for Y2K-related
posed changes on various legisla-
                                           country Y2K preparedness based                  failures at foreign locations;
tion, including:
                                           on site visits to Indonesia, China,                   the Departments progress in
    S 1993, Government Infor-             Saudi Arabia, and Egypt.                        certifying its mission-critical sys-
mation and Security Act of 1999.                                                           tems for Y2K; and
                                               In addition, on October 21,
     HR 436, Government Waste,                                                                  finally, the need for a post-
                                           1999, the Inspector General testified
Fraud, and Effort Reduction Act.                                                           Y2K assessment in order to identify
                                           before the House Committee on
    HR 1827, Government Waste             International Relations on Year                 lessons learned and best practices
Corrections Act of 1999.                   2000 computer threats to U.S. inter-            that may be applicable to govern-
    S 92 Biennial Budgeting and           ests abroad. As this was the com-               ment agencies and private sector
Appropriations Act.                        mittees only hearing on the Y2K                organizations.
     Draft legislation to Establish       computer problem, the testimony
                                           presented the committee with a



  8 .                                  Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
                U.S. Department of State


Special Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        13

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    14

Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

Security and Intelligence Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      29

Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Appendix 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               39
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    40

Appendix 4: Resolution of Reports and Recommendations
      Previously Reported Significant Audit Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   41
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                                                        11 .
Special Report
Congress appropriated about $1.5 billion for security enhancements follow-                      guard services, but indicated that
ing the August 1998 bombings of U.S. Embassies in Nairobi and Dar es                            information gaps existed on some
Salaam. The Department created a separate account for managing the                              ESA-funded programs and projects.
FY 1999 Emergency Supplemental Appropriations (ESA) funds. OIG as-                              To best implement these programs,
sessed the Departments management controls and systems that account                            post officials recommended better
for and manage ESA funds, recruit and train security and administrative                         communications with headquarters
personnel, and procure ESA goods and services. OIG also evaluated the                           program elements and regional bu-
Departments efforts to enhance physical security overseas.                                     reaus. Headquarters elements sup-
                                                                                                ported corrective actions in this
                                                                                                area.
                                                                                                     OIGs May 1999 reviews at the
Review of FY 1999 Emergency Supplemental                                                        current or interim facilities for Em-
Appropriations (00-OIG-001)                                                                     bassies Dar es Salaam and Nairobi
                                                                                                found they were more secure than
In this review, OIG found, overall,             transferred to overseas posts that
                                                                                                at the time of the August 1998
that the Department provided senior             were not actual obligations for
                                                                                                bombings. However, both embas-
level attention and adequate man-               goods and services. In addition, the
                                                                                                sies still had vulnerabilities that
agement of resources to improve                 account coding structure the De-
                                                                                                needed to be addressed at the time
overseas security. The direct in-               partment implemented was initially
                                                                                                of the security evaluation. For ex-
volvement of the Under Secretary                complex and confusing. Corrective
                                                                                                ample, Embassy Dar es Salaam
for Management and the Security                 actions are being implemented. The
                                                                                                lacked sufficient emergency electri-
Oversight Board have provided                   Department is making considerable
                                                                                                cal power for security systems such
focus for the overseas security en-             progress in filling the 391 new secu-
                                                                                                as exterior security lights, alarms,
hancements and fostered coordina-               rity positions established under
                                                                                                and vehicle barriers. Also, Embassy
tion among the different bureaus.               ESA. When hired, the new person-
                                                                                                Nairobi needed to strengthen the
                                                nel should help address the staffing
    The Department has estab-                                                                   large glass windows in the front of
                                                shortages to support overseas secu-
lished systems capable of appropri-                                                             the interim chancery building and
                                                rity. Despite the pressure to procure
ately accounting for and managing                                                               provide a secondary exit point from
                                                ESA goods and services quickly, the
ESA funds obligated and liquidated                                                              the compound. The Department has
                                                Department followed applicable
domestically. However, Department                                                               corrected these deficiencies and
                                                procurement and property manage-
reports on domestic program funds                                                               reported action to correct many oth-
                                                ment regulations. Most overseas
obligated to date were overstated                                                               ers described in our report.
                                                officials were satisfied with the
because they include $76 million
                                                Departments response to funding
                                                requests for post-proposed ESA-
                                                related procurements, minor con-
                                                struction projects, and expanded




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                               13 .
Audits
             Y2K Certification Process
             OIG completed its role in assisting the Department to meet the challenge
             facing its information technology infrastructure, including computer soft-
             ware, hardware, and embedded devices. As reported in our previous Semi-
             annual Report to the Congress, OIG assisted in establishing a process
             through which the Department could certify the Y2K compliance of its mis-
             sion-critical systems, by establishing detailed guidelines that each bureau
             must use in developing application certification packages for submission to
             the Y2K Program Management Office. The certification process provided
             the Departments senior managers with assurance that substantial effort
             had been made to prevent computer-related failures on January 1 and Feb-
             ruary 29, 2000. Through an agreement with the Under Secretary of State
             for Management, OIG reviewed the adequacy of all certification packages
             for mission-critical systems before they were provided to the Y2K certifi-
             cation panel and approved by the Departments Chief Information Officer.
             As of March 31, 2000, OIG evaluated and provided comments to the De-
             partment on 56 mission-critical application certification packages.




             Results Act Review
             The Results Act requires agencies to set goals for program performance
             and to measure results against those goals to help improve efficiency and
             effectiveness and to increase the accountability of Federal programs. Con-
             gress has requested that Inspectors General assist with oversight of agency
             implementation of the Results Act. In response to that law, the Department
             of State has developed strategic and annual performance plans built around
             a framework of 7 national interests, 16 strategic goals, and 3 support (diplo-
             matic readiness) goals.
                 The Department is still developing overall agency performance goals
             and measures under the strategic goals, but has established them for its
             three diplomatic readiness goals. OIGs strategy is to selectively validate
             and verify performance data under these diplomatic readiness goals as
             FY 1999 data becomes available. Additionally, we will continue to build a
             Results Act component into selected audits and inspections. Thus far, our
             work has identified the need for better performance information in the
             Department in selected areas.
                 OIGs review of the policies and practices used to recruit Foreign Ser-
             vice specialists (00-HR-015) found that, although the Bureau of Person-
             nels Performance Plan contains initiatives that could improve recruiting, it



14 .     Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
is silent on establishing specific              Implementation of the Managerial Cost Accounting
goals for reducing the length of the            Standards (00-FM-001)
process. OIG identified the need
to establish and incorporate bench-             In conjunction with the audit of the Departments financial statements, OIG
marks on the timeliness of the                  reviewed and evaluated the Departments implementation of Managerial
recruiting process in the Bureau of             Cost Accounting Standards. OIG found that the Department is making
Personnels plans, which would lead             reasonable progress, but additional work is needed for the Department to
to valuable indicators to help assess           substantially comply with the standard. For example, the Department chose
the Bureaus progress.                          reasonable responsibility segments, recognized the cost of goods and ser-
                                                vices that it receives from other entities, and used an appropriate allocation
    OIGs report on the Depart-                 methodology. However, the Department did not implement an effective
ments effort to reduce trade                   process to routinely collect managerial cost information, establish outputs
barriers (00-CI-009) in the telecom-            for each responsibility segment, or allocate all support costs. Until this is
munications industry has found that             accomplished, financial information will not be fully useful as a manage-
fundamental weaknesses in the                   ment decision-making tool.
Departments performance planning
limit its ability to effectively man-
age, coordinate, and report on its
progress in reducing trade barriers.
OIG recommended that the Bureau                 Allegations Regarding Construction of Warehouse/
of Economic and Business Affairs,               Annex at Embassy Ulaanbaatar (00-PP-002)
with guidance from the Depart-                  Regarding the construction of an embassy warehouse/annex, OIG received
ments core strategic planning team,            allegations that the prime contractor was unqualified to carry out the con-
develop priorities for the national             tract, the Department overpaid for the firms services, the firm was not au-
interest of Economic Prosperity                 thorized to use subcontractors, and it had mistreated its subcontractors.
and align the performance and
operational plans accordingly.                       OIG found no evidence to support the allegations against the contrac-
                                                tor, but determined that questionable contract administration practices by
     OIGs ongoing review of the                the Department may have contributed to the allegations. For example, the
Departments mission and bureau                 Department awarded a $133,247 contract modification to the contractor for
level planning process found that               services that appeared to have been already covered in the prime contract.
the Department was unable to link               Although OIG accepted the Departments explanation for this modification,
its strategic planning and resource             the lack of adequate contract file documentation, and other shortcomings
allocation processes. We have also              reflected poor contract management practices. OIG recommended that
reported on mission-level strategic             these practices be reviewed and strengthened as appropriate.
planning in each of our post inspec-
tion reports. For example, the in-
spection of Embassy Port-au-Prince
(ISP/I-00-04) detailed highly visible
problems in strategic planning con-
cepts, which also were observed in
other post inspections. OIG report-
ed that Embassy Port-au-Princes
Mission Performance Plan (MPP)
lacked coherent performance indi-
cators and that its goals and objec-
tives were not prioritized.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                        15 .
Department of State Actions Regarding                                                    Nontax Delinquent
U.S. Funding for the International Civilian                                              Debt (00-FM-004)
Mission in Haiti (00-CG-003)
                                                                                         OIG reviewed the Departments
In response to a request from the Chairman of the Senate Committee on                    compliance with the Debt Collection
Foreign Relations, OIG reviewed the actions of Department of State offi-                 Improvement Act of 1996 (Public
cials regarding U.S. funding for the joint Organization of American States               Law 104-134). This audit was part
(OAS)/United Nations International Civilian Mission in Haiti (MICIVIH).                  of a Presidents Council on Integrity
The chairman requested that OIG address several questions to determine                   and Efficiency governmentwide
whether Department officials made any commitments to OAS with regard                     review of nontax delinquent debt.
to the 1999 congressional appropriation of funds for MICIVIH or encour-                  Nontax delinquent debt includes
aged OAS to spend money it did not have.                                                 debt unrelated to taxes owed by
                                                                                         individuals to Federal agencies.
   OIG found no basis to conclude that anyone in the Department made
                                                                                         The objectives of the review were
commitments to OAS officials about the funding for MICIVIH or encour-
                                                                                         to determine whether the Depart-
aged OAS to continue operations without funding.
                                                                                         ments share of the reported
                                                                                         $60 billion in governmentwide non-
                                                                                         tax delinquent debt accurately rep-
                                                                                         resents the universe of such debt
                                                                                         and to evaluate the ages and the
                                                                                         collectibility of the delinquent debt.
                Joint Depar tment of State/                                              Also, the audit evaluated the De-
               USAID Quality Control Review                                              partments portfolio management
                                                                                         activities to ensure that these prac-
        Our office and the USAID OIG conducted a joint quality con-
                                                                                         tices minimized loss to the Federal
        trol review of a public accounting firms working papers for its
                                                                                         Government.
        audit of a mutual grantee. The audit covered the grantees
        fiscal year which ended June 30, 1998. The objective of a                             OIG found that the Department
        control review is to assure that the audit was conducted in                      diligently worked toward meeting
        accordance with the applicable standards and meets the                           the objective of the act to collect
        auditing requirements of the Office of Management and                            delinquent debts owed to the Feder-
        Budget Circular No. A-133. We focused the review on the                          al Government and reduce losses
        following qualitative aspects of the audit: due professional                     arising from inadequate debt man-
        care, planning, supervision, independence, quality control,                      agement activities. However, the
        internal controls, substantive testing, general and specific                     audit identified several areas where
        compliance testing, and the Schedule of Federal Awards.                          improvements could be made. The
        We found that the audit of the grantee performed for the                         OIG review found that the Depart-
        fiscal year ended June 30, 1998, was technically deficient
                                                                                         ment was not routinely sending
        and will require corrective action by the accounting firm.
                                                                                         delinquent debt for cross-servicing
        However, the findings resulting from these deficiencies did
                                                                                         activities; the amount of debt sent to
        not appear to affect the results of the audit. In particular, the
                                                                                         the Department of the Treasury for
        auditors did not have adequate documentation to support
        their tests of internal controls on several compliance items
                                                                                         collection did not include accurate
        including eligibility, matching, period of availability, reporting               and complete amounts for interest,
        and subrecipient monitoring. The independent accounting                          penalties, and administrative charg-
        firm also did not identify the Department of State as a source                   es; and improvements were needed
        of Federal funding on the Data Collection Form. As a result,                     in debt management including pro-
        the Department would not be notified or provided audit                           ducing a reliable aging schedule.
        results.




 16 .                                Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Audit of the Selection of                            In the short period since the in-          the distribution of ICASS personnel
Service Providers in the                        ception of ICASS, posts have im-                time to cost centers be based, to the
International Coopera-                          plemented the basics of ICASS,                  extent practical, on objective quanti-
tive Administrative                             which has resulted in improved                  fiable measures, and that more ac-
Support Services                                transparency of costs. However,                 curate cost distribution factors be
System (00-PP-005)                              improvements are needed to make                 developed; post MPPs and adminis-
                                                the process more effective. OIG                 trative officers work requirements
OIG reviewed posts progress                    found that the Department could be              reflect the goals of ICASS; ICASS
in selecting the most cost-effective            a more cost-effective service pro-              data be used to conduct global, re-
service providers under the Inter-              vider. Most post ICASS councils                 gional, and post-to-post comparisons
national Cooperative Administrative             have not been active in analyzing               to identify large differences in
Support Services (ICASS) system.                ICASS costs and seeking more                    costs; guidance to posts regarding
ICASS was initiated in 1996 in                  cost-effective solutions. Some                  the process to be followed in choos-
response to the National Perfor-                posts MPPs and ICASS employee                  ing among competing service pro-
mance Review Initiative and a                   work statement requirements do not              viders be clarified; and opt-outs of
congressional mandate to have a                 reflect the ICASS goals of improv-              ICASS services be monitored and
system in place that allocates to              ing the quality of services and low-            observations shared with respective
each department and agency the                  ering costs.                                    posts or regional bureaus.
full cost of its presence outside the
                                                     Finally, significant cost savings
United States. In addition to allo-
                                                have not yet resulted from ICASS.
cating costs, additional goals of
                                                Although some agencies have indi-
ICASS were to: increase the trans-
parency of costs, provide quality
                                                cated that they reduced costs by                International Joint Com-
                                                opting out of ICASS services, opt-              missions 1998 Principal
administrative services and increase
                                                outs may not provide the most cost-             Financial Statements
customer satisfaction, reduce and
                                                effective arrangement to the U.S.               (00-FM-006)
contain costs, and promote local
                                                Government. OIG also identified
empowerment.                                                                                    Pursuant to an interagency agree-
                                                best practices at some posts visited
    OIG examined whether posts                  and noted how OIG findings related              ment, OIG audited the International
had the tools necessary to identify             to the goals and objectives of the              Joint Commissions (IJC) 1998 Prin-
and select the most cost-effective              Results Act.                                    cipal Financial Statements in order
service providers. OIG also re-                                                                 to obtain reasonable assurance and
                                                    OIG recommended that service
viewed whether the Department                                                                   express an opinion on whether the
                                                providers evaluate their compliance
had made progress towards becom-                                                                financial statements were free of
                                                with all measurable service stan-
ing a more cost-effective service                                                               material misstatement, to determine
                                                dards. OIG also recommended that
provider, and whether, at posts
where another agency sought to
serve as a provider, the service pro-
vider selection process worked as
intended. OIG also reviewed                                  Language             Proficiency            Pay     Program
whether significant cost savings                     In response to a 1996 OIG audit report, the Department imple-
have been achieved under ICASS,                      mented a new foreign language monetary incentive program
including how opt-outs, agencies                   that will reward proficiency and maintenance of designated
pulling out of particular ICASS ser-                 hard languages, rather than language acquisition. The
vices, have affected overall U.S.                    radically restructured program, which took effect on October 1,
Government costs. In addition, OIG                   1999, is designed to recognize the employees linguistic contri-
identified best practices that could                 butions, improve language skills, and encourage repeat tours
aid posts in selecting the most cost-                through monetary incentives.
effective service provider.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                17 .
whether IJC had an internal control          OIG determined that the De-                unauthorized release persists. OIG
structure that provides reasonable      partment is making progress toward              made two recommendations to im-
assurance of achieving internal con-    converting payments from checks                 prove the Departments ability to
trol objectives, and whether IJC        to EFTs. As of March 1, 1999, the               monitor the transfer of technical in-
complied with applicable laws and       Department was processing 62 per-               formation to foreign nationals and to
regulations.                            cent of its payments by EFT. Based              inform responsible parties of appli-
                                        on its progress to date and ongoing             cable licensing requirements.
     OIG issued an unqualified opin-
                                        efforts, OIG believes the Depart-
ion on IJCs 1998 Principal Finan-
                                        ment is on track to meet Treasury
cial Statements, which means the
                                        goals. OIGs review indicated that
financial statements were free of
                                        the Departments controls over EFT              The Department
material misstatements. Although an
                                        processing are adequate domesti-
unqualified opinion was issued for                                                      of States Strategic
                                        cally, as well as for the Financial
the 1998 Financial Statements, the                                                      Planning and Manage-
                                        Service Center OIG visited. How-
report brings to managements at-                                                       ment of Efforts to
                                        ever, some domestic controls need
tention concerns with security over                                                     Reduce Foreign Trade
                                        improvement in the areas concern-
the Departments mainframe com-                                                         Barriers in the Tele-
                                        ing segregation of duties, security
puters and the inadequacy of its                                                        communications Sector
                                        of the equipment, and payments to
financial and accounting system,                                                        (00-CI-009)
                                        vendors.
which is both an internal control
weakness and an issue of noncom-                                                        OIG conducted a review to evalu-
pliance with several laws and regu-                                                     ate the Departments strategic and
lations, including the Budget and                                                       performance planning and its man-
Accounting Act of 1950, the Feder-      Department of State                             agement of efforts to reduce trade
al Managers Financial Integrity        Controls Over the                               barriers in the telecommunications
Act, and the Chief Financial Offic-     Transfer of Militarily                          industry. OIGs assessment of the
ers Act. Because IJC uses the           Sensitive Technology                            Departments planning and perfor-
Department of States accounting        to Foreign Nationals                            mance goals and measures address-
system, these problems affect IJCs     from Countries and                              es the requirements of the Results
financial reporting.                    Entities of Concern                             Act.
                                        (00-CI-008)                                         Our review found that the De-
                                                                                        partments efforts to open interna-
                                        As part of the National Defense
                                                                                        tional telecommunications markets
                                        Authorization Act for FY 2000
Electronic Fund                                                                         for U.S. businesses have helped
                                        (Public Law 106-65), OIG partici-
Transfers (00-FM-007)                                                                   reduce trade barriers. However,
                                        pated in an interagency review of
                                                                                        most of the Departments perfor-
OIG initiated a review of the De-       the adequacy of policies and proce-
                                                                                        mance indicators are not tied to its
partments progress in fulfilling its   dures to protect against the unau-
                                                                                        actual activities and do not have
congressional mandate to put a sys-     thorized release of militarily
                                                                                        measurable targets. These weak-
tem in place to make payments by        sensitive information to foreign na-
                                                                                        nesses in the Departments perfor-
electronic fund transfers (EFTs).       tionals. OIG found that the Depart-
                                                                                        mance planning limit its ability to
The Department of the Treasury          ment does not systematically track
                                                                                        effectively manage, coordinate, and
has set goals of 69 percent of the      foreign nationals on export licenses,
                                                                                        report on its progress in reducing
Departments payments made by           but instead relies heavily on self-
                                                                                        trade barriers in the telecommunica-
EFTs for FY 1999 and 75 percent         policing by U.S. companies. There-
                                                                                        tions industry. OIG recommended
for FY 2000.                            fore, although licensing agreements
                                                                                        that the Office of the Under Secre-
                                        may be in place requiring adherence
                                                                                        tary for Economic, Business, and
                                        to policies and procedures protect-
                                        ing sensitive information, the risk of




 18 .                               Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Agricultural Affairs, in coordination           on telecommunications meetings,                 objectives were to determine
with the Departments core plan-                private sector concerns, developing             whether expenditures for FYs
ning group, develop specific priori-            policy issues, congressional pro-               1993-97 were in compliance with
ties for the national interest goal of          ceedings, and U.S. Department of                the authorizing legislation, internal
Economic Prosperity and align the               Commerce and Foreign Commer-                    controls over funds and property
strategic, annual performance, and              cial Service initiatives with posts in          were adequate, and previous OIG
operational plans to these goals and            a timely manner.                                recommendations had been imple-
priorities. OIG also recommended                                                                mented.
that the bureau provide a measur-
                                                                                                     The general nature of the au-
able, targeted level of performance
                                                                                                thorizing legislation has allowed for
for each telecommunications per-                Operations and                                  differing interpretations as to its in-
formance indicator listed in its Bu-
                                                Expenditures from                               tent; however, OIG reported that
reau Performance Plan.
                                                the Appropriation                               some of the expenditures do not ap-
     In addition, the Department                for Emergencies in                              pear to meet the intent of the legis-
could improve communication with                the Diplomatic and                              lation. The Department disagreed
its overseas missions on telecom-               Consular Service                                and believes that it does comply
munications issues. The Depart-                 (00-FM-011)                                     with the requirements. In addition,
ments overall ability to respond to                                                            we found that the Department did
telecommunications issues is im-                OIG performed an audit, as re-                  not prepare timely or accurate quar-
paired when the missions are not                quired by 22 USC Section 2671, as               terly reports to Congress as man-
fully and currently informed. OIG               amended (Public Law 98-164), of                 dated by legislation.
recommended that the Bureau of                  the Operations and Expenditures
                                                from the Appropriation for Emer-                    The decentralized structure of
Economic and Business Affairs, In-
                                                gencies in the Diplomatic and Con-              the K Fund led to inefficiencies and
ternational Communications and In-
                                                sular Service (the K Fund). The                 exacerbated other internal control
formation Policy, share information



                         Inter a gency Review of the Expor t Licensing
                             Pr ocess for For eign National V isitor s
      As required under specific provisions of the National Defense Authorization Act for Fiscal Year
      2000, the Inspectors General of the Departments of Commerce, Defense, Energy, and State
      cooperatively reviewed the export licensing process for Foreign National visitors. Our overall
      objective was to determine whether the policies and procedures for the transfer of information
      at Federal laboratories and agencies to foreign nationals (deemed exports) from countries of
      concern adequately protect militarily sensitive technologies.
           The Inspectors General found that Federal agencies lack of awareness and understanding
      of deemed exports could damage national security if militarily sensitive technology is released
      to inappropriate end users. The Departments of Commerce and State OIGs found that both
      agencies could improve their outreach programs to raise awareness of deemed export regula-
      tions. In addition, the Inspectors General found that the Departments of Commerce and Defense
      did not have export control policies and procedures to help ensure that militarily critical technolo-
      gies and technical information were only released to foreign nationals visiting research facilities
      in accordance with Federal export licensing requirements. The Inspectors General concluded
      that few Federal laboratories or agencies applied for deemed export licensing applications in
      FY 1999 and that the level of compliance with deemed export regulations was unknown. The
      participating OIGs made specific recommendations relevant to their own agencies.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                 19 .
           weaknesses in the checking                      Recruiting Foreign
           accounts, obligations, evacuations,             Service Specialists
           and inventory. The K Fund lacked                (00-HR-015)
           written policies and an internal
           review capability. Although the                 In another area, OIG evaluated
           Department had implemented most                 the policies and practices used to
           K Fund recommendations from                     recruit Foreign Service specialists.
           prior audits, OIG reissued one rec-             We found that the Department
           ommendation that had remained                   made significant progress in hiring
           open and five others because the                Foreign Service specialists. For
           current practices did not reflect               example, in FY 1999 the Depart-
           managements corrective actions.                ment met 98 percent of its goal
                                                           by hiring 582 of the required 588
                                                           specialists. However, one area
                                                           warrants further review and action
                                                           by the Bureau of Personnel: the
           Procurement                                     amount of time needed to hire
           Operations at                                   candidates after they apply for
           Embassy Conakry,                                employment. For example, for
           Guinea (00-PP-013)                              the Information Management and
                                                           Office Management specialists ex-
           Acting upon a March 1999 Embas-
                                                           amined in our analysis, an average
           sy Conakry request, OIG reviewed
                                                           of 377 days elapsed from when the
           procurement operations and leasing
                                                           Bureau of Personnel received the
           practices of the general services
                                                           resumes/applications until the can-
           office. OIG found that manage-
                                                           didates first day of employment.
           ment controls over the procurement
                                                           Candidates tend to lose interest in
           process were not adequate. For
                                                           working for the Department as the
           example, procurement files were
                                                           recruiting process drags on, accord-
           inaccurate or could not be located,
                                                           ing to the Bureau of Personnel.
           changes to the local guard contract
                                                           OIG recommended that the Bureau
           were not appropriately modified,
                                                           of Personnels Bureau Performance
           and procurement actions were not
                                                           Plan contain benchmarks on the
           competed as required. The post has
                                                           amount of time needed to hire
           been responsive to OIG recommen-
                                                           candidates after they apply for
           dations and corrective actions have
                                                           employment.
           resulted in improved management
           and operations of the procurement
           process, including fostering more
           local competition for post procure-
           ment of products and services.




20 .   Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Inspections
                                                The Office of Inspections conducted post inspections at Embassies Kiev,
                                                Ukraine; Manila, Philippines; Port-au-Prince, Haiti; Rabat and Casablanca,
                                                Morocco; Tunis, Tunisia; Manama, Bahrain; and Sanaa, Yemen; and at the
                                                American Institute in Taiwan.




                                                American Institute in                           simplify the assignment process,
                                                Taiwan (ISP/I-00-01)                            rationalize the uncertain and inade-
                                                                                                quate resource base, and negotiate
                                                AIT is a nongovernmental entity                 a new contract to clarify and codify
                                                established in 1979 to maintain the             the tangle of administrative rela-
                                                unofficial relationship between the             tionships with the Department of
                                                United States and Taiwan and oper-              State and other U.S. Government
                                                ates under contract to the Depart-              agencies. In particular, AIT needs
                                                ment. AIT has carried out its core              a new framework to provide long-
                                                mission with great success. Reener-             term budgetary stability, and a
                                                gized under its current leadership              more rational, transparent funding
                                                and with a talented, experienced                operation.
                                                staff, AIT Washington plays a
                                                unique role in translating U.S. Tai-                 AIT Taipei has made significant
                                                wan-related policies and programs               strides in improving its administra-
                                                into a nongovernmental context.                 tive functions, but weaknesses re-
                                                AIT Taipei office is doing a fine job           main in financial management,
                                                of advancing U.S. policies, promot-             general servicesespecially the
                                                ing economic and trade interests,               procurement processand person-
                                                and handling the delicate political-            nel. A new financial management
                                                military relationship.                          system, once it is fully implemented
                                                                                                and with appropriate internal con-
                                                    AITs unique status and the na-             trols, should permit AIT Taipei to
                                                ture of its relationship with the U.S.          manage its resources more trans-
                                                Government pose a number of man-                parently and effectively. AIT Taipei
                                                agement challenges for the Depart-              faces major decisions regarding real
                                                ment. Although AITs management                 property, involving potential multi-
                                                and administration much improved                million-dollar commitments that are
                                                since the 1993 inspection, the time             beyond AITs ability to fund or to
                                                has come to simplify the costly and             manage. The Department must play
                                                cumbersome procedures that re-                  an active role in deciding what con-
                                                duce AITs ability to operate effec-            struction will be done and in provid-
                                                tively. OIG found that AIT should               ing the funding to carry it out.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                               21 .
     Because of its unique structure,      U.S. objective is to sup-
public diplomacy was integrated            port Ukraines transition
within AIT Taipeis operations well        to a Western-oriented
before USIA was merged into the            democratic society with
Department of State. Although the          a market-related econo-
cultural and information section           my. Internal corruption,
functioned well, OIG concluded that        crime and political divi-
the section needs to be more active-       sion work against rapid
ly involved in integrating public di-      progress toward that
plomacy into the broad range of            objective.
AIT Taipeis activities.
                                                 The posts physical
     AIT Taipeis consular opera-           plant impedes efficient        Stacked construction trailers are a health and safe-
tions conduct an extraordinarily high management. The                        ty hazard for the many FSNs who work within.
volume of business. They are well           chancery compound is
managed and serve as an example             too small to accommo-
of efficient and productive applica-        date the size of the mission and is a      and a well-administered exchange
tion of consular best practices. OIG hazard to the health and safety of                program that sends over 1,000
found some areas where consular             those who work there. Officers             Ukrainians to the United States
operations need to be brought into          sit back to back in cubicles; many         each year.
compliance with worldwide consu-            Foreign Service national (FSN) em-
lar policy and procedures.                  ployees are crowded into converted
                                            construction trailers, stacked on top
                                            of one another and none having             Embassy Manila,
                                            adequate facilities. In the Defense        Philippines, and
Embassy Kiev, Ukraine                       attaché office, seven Americans            Broadcasting Board of
(ISP/I-00-02)                               share 336 square feet of space, in-        Governors Philippines
                                            cluding a corridor; in the economic        Transmitting Station
Embassy Kiev is a big, well-run             section, three officers share 195          (ISP/I-00-03)
post. Under strong, compassionate           square feet. The cashier works in
leadership, the Embassy effectively         an area of 6 feet by 6 feet, with          The U.S. Embassy in Manila is
implements a complex, long-term             conditions adversely affecting inter- one of the largest and most complex
U.S. policy; U.S.-funded assistance nal controls. The embassy needs                    diplomatic establishments in the
programs total more than $300 mil-          the Departments help to deal with         world. At present, policy differ-
lion each year and are among the            its critical short- and long-term real     ences are minimal and bilateral
largest in the world. The primary           property issues. Notwithstanding a         relations are excellent. The U.S.
                                                       daunting policy environ-        mission is positively engaged and
                                                       ment, poor working condi- doing an excellent job of building
                                                       tions, and a lack of basic      support across the range of U.S.
                                                       benefits for national em-       interests. The Philippines willing-
                                                       ployees, mission morale is      ness to volunteer peacekeeping
                                                       remarkably high.                personnel in East Timor and speak
                                                                                       out for democratic values in the
                                                           The public diplomacy
                                                                                       Association of South East Asian
                                                       section employs innovative
                                                                                       Nations was particularly helpful to
                                                       programs in support of
                                                                                       U.S. interests. Foreign assistance
                                                       mission objectives, includ-
                                                                                       is virtually at an all-time low. The
                                                       ing the generation of fa-
                                                                                       Embassy is commended for its part
   Foreign Service officers, crowded into small        vorable media attention to
    cubicles, share inadequate working space.
                                                                                       in facilitating the ratification of a
                                                       U.S. positions on Kosovo



 22 .                                  Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
new Visiting Forces Agreement that will help strengthen the U.S. military                     ready at the outer limit of its ability
presence regionally.                                                                            to provide this support, and there
                                                                                                are notable lapses in planning,
     The Embassy front office should give closer attention to several admin-
                                                                                                record keeping, and organization.
istrative problems, in particular, severe financial and management problems
                                                                                                Embassy performance is further
in the U.S. Employees Association (USEA). A 1994 OIG inspection report
                                                                                                impeded by a number of vacant po-
specifically tasked post management with monitoring and correcting the
                                                                                                sitions.
USEAs problems. However, these problems have gone unattended since
1995 and, despite repeated visits from the Departments commissary and                              The public diplomacy section
recreation staff, have now reached a crisis stage, since the association has                    has been well integrated into the
weak internal controls and is losing money rapidly.                                             Embassy as a result of USIA-State
                                                                                                Department consolidation. The Am-
     Manila is one of the most challenging consular operations in the world.
                                                                                                bassador is highly skilled in using
The Embassy and the Department still must address significant problems,
                                                                                                public diplomacy to advance U.S.
including renovation of a poorly laid out physical plant. Despite the massive
                                                                                                interests and is supported effective-
workload, and the limitations on resources that have created chronic staff-
                                                                                                ly by this section. Embassy Port-au-
ing gaps and hampered operations, the consular section is doing an excel-
                                                                                                Prince is making excellent use of
lent job of meeting its responsibilities. A large, skilled administrative
                                                                                                VOA Creole media contacts to
operation with excellent section chiefs provides more than satisfactory ser-
                                                                                                reach the people of Haiti. The con-
vices to all mission employees. OIG identified no serious deficiencies in the
                                                                                                sular section is also conspicuously
often nettlesome core administrative areas of financial management, per-
                                                                                                strong and, with good support from
sonnel, information management, or the general services office. However,
                                                                                                the Bureau of Consular Affairs, ef-
management controls need more attention by all concerned, and OIG made
                                                                                                fectively overcoming a large inherit-
several recommendations in this area. OIG also agrees with the Depart-
                                                                                                ed backlog of immigrant visa cases
ments opposition to U.S. Agency for International Development (USAID)
                                                                                                while managing a heavy load of
Manilas effort to assume responsibility for its own FSN payroll system,
                                                                                                current applications.
rather than continue to use the Bangkok Financial Service Center.
                                                                                                     Widely scattered facilities and
    OIG visited the BBG Transmitting Station on the Philippines Island
                                                                                                numerous physical security short-
of Luzon and found it to be a well run and effective operation. However,
                                                                                                comings seriously complicate Em-
OIG found that BBGs Office of Affiliate Programs needs to better coor-
                                                                                                bassy Port-au-Princes ability to
dinate with Embassy Manila when identifying and contracting with Philip-
                                                                                                meet current security standards.
pine commercial radio stations to rebroadcast Voice of America (VOA)
                                                                                                Some security improvements will be
programs.
                                                                                                included in a renovation of the
                                                                                                chancery scheduled to start early in
                                                                                                2000. This renovation will signifi-
Embassy Port-                                   cooperate with Haitian authorities in           cantly improve working conditions
au-Prince, Haiti                                blocking the growing traffic of ille-           for those employees in the chan-
(ISP/I-00-04)                                   gal narcotics through Haiti to the              cery, but a large number of mission
                                                United States. A very difficult                 employees will not be accommodat-
Continuing controversy on U.S. in-              working environment and Haitis                 ed and will remain in trailers on the
tervention in 1994 and Haitis pros-            uncertain future contribute to a cri-           Embassy grounds or in scattered
pects for democracy and economic                sis atmosphere at the Embassy.                  annexes. To meet longer-term
development indicate a need for an-             This is compounded by frequent                  needs the Embassy meanwhile
other policy review of U.S. interests           high-level visits. In these circum-             should begin planning with the Of-
in terms of what can be achieved                stances, Embassy management is                  fice of Foreign Buildings Operations
and what resources are required.                struggling, with mixed results, to              for a more suitable, secure, and per-
This review is further warranted by             support a growing U.S. diplomatic               haps better located chancery.
the rapidly expanding U.S. effort to            establishment. The Embassy is al-




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                 23 .
           Embassy Rabat,                                       The consular section, based in
           Morocco, Consulate                              the largest city and business capital,
           General Casablanca,                             Casablanca, is overburdened and
           and the BBG Morocco                             struggling to manage its growing
           Transmitting Station                            workload. Attention to policy issues,
           (ISP/I-00-05)                                   reporting, and outreach activities
                                                           suffer as a result. The Department
           Morocco entered a new era with                  needs to address consular readiness
           the accession of a young king with              and staffing issues.
           a reformist agenda in July 1999.
           Embassy Rabat is doing excellent                     The Department, the Embassy,
           work in advancing U.S. interests,               and Consulate General Casablanca
           which include stability, prosperity,            need to focus on dysfunctional and
           and democracy, and in refocusing                inefficient space configuration in
           policy initiatives from multilateral            both posts, and relocate the public
           issues, such as the Middle East                 affairs sections in both Rabat and
           Peace Process, to bilateral issues.             Casablanca. The physical distance
           U.S. support for the new king has               of public affairs from the chancery
           resulted in increased attention to              in Rabat has hampered agency con-
           Morocco, a growing number of                    solidation. The mission administra-
           high-level visitors, and a demand for           tive section provides a high level of
           increased post reporting. A mission             support, but greater communication
           reporting plan, incorporating the               and recognition for the staffs of the
           strategic goals of the MPP, to coor-            Consulate General and Morocco
           dinate the work of the political and            Transmitting Station in Tangier
           economic sections, as well as the               should be implemented.
           public affairs and consular sections                 The Transmitting Station is
           and Consulate General Casablanca,               well managed and its efficiency is
           is an urgent requirement. The mis-              constantly improving. Diplomatic
           sion developed an outstanding MPP               readiness is also improving because
           but was frustrated by a lack of De-             of upgrades to the Embassys tele-
           partment attention to resource                  communications systems. The secu-
           needs. The Department needs to                  rity systems in Rabat, Casablanca,
           improve coordination of the inter-              and Tangier are strong, and OIG
           agency U.S.-North African Eco-                  made a series of formal recommen-
           nomic Partnership Initiative in 1998            dations and provided additional
           to reduce trade barriers and boost              advice to help tighten security
           U.S. investment in Morocco, Tuni-               further.
           sia, and Algeria.




24 .   Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Embassy Tunis, Tunisia                          integration of public diplomacy has             found a need for better coordination
(ISP/I-00-06)                                   proceeded well after consolidation,             with the Department on reporting
                                                realignment of officer duties and               requirements and on contact report-
The mission manages the 200-year-               shifting foreign national workloads             ing policy. The Embassy is spear-
old relationship with Tunisia suc-              due to recent severe cutbacks need              heading a successful interagency
cessfully by maintaining an active              to be addressed. The consular sec-              effort to enhance economic rela-
dialogue on key regional issues such            tion deserves high praise in imple-             tions with Bahrain. This multifacet-
as the Middle East Peace Process,               menting mission objectives and                  ed public affairs program deserves
Iraq, and Libya, and devoting suffi-            consular best practices, and for on-            credit for recent improvements in
cient attention to bilateral issues. An         the-job training. The front office              Bahraini press coverage of issues
active U.S program of joint military            should deepen its involvement in                important to the United States. Al-
exercises and assistance has pro-               consular policy issues.                         though the U.S. naval contingent
duced a generally pro-American                                                                  dwarfs the rest of the American
military. Tunisians were enthusiastic                Originally, the Department
                                                                                                presence in Bahrain, effective inter-
at the initiation of the U.S.-North             planned to relocate the Foreign Ser-
                                                                                                agency coordination keeps the Am-
African Economic Partnership Ini-               vice Institutes Arabic Language
                                                                                                bassador firmly in control. The
tiative in 1998, but problems of in-            Field School, currently in a suburb
                                                                                                Embassy provides administrative
sufficient funding, structure, and              of Tunis, to the new chancery com-
                                                                                                support, but has little substantive
direction from Washington have led              pound. With relatively few security
                                                                                                interaction with the BBG office in
to disappointment so far. Moreover,             upgrades, the school can stay
                                                                                                Manama, which is staffed by a sin-
as Tunisia begins a 2-year term on              where it is. More appropriately,
                                                                                                gle expatriate FSN employee who
the United Nations Security Council             planning should proceed to include
                                                                                                monitors broadcasts in the region.
in January 2000 as the sole Arab                an on-compound residence for the
                                                                                                Morale and job satisfaction of the
member, U.S. diplomacy will face a              Marine security guard detachment
                                                                                                missions American and FSN em-
challenge on Iraqi issues because of            in place of a building for the Arabic
                                                                                                ployees are among the highest ever
widespread Tunisian sympathy with               school. Once the Embassy moves
                                                                                                seen by recent OIG inspection
the plight of the Iraqi people under            to the new compound, the detach-
                                                                                                teams, thanks largely to a thought-
UN sanctions.                                   ment quarters, if left in place, would
                                                                                                ful, caring, and energetic front
                                                be located too far away for reason-
    Interagency coordination at                                                                 office.
                                                able reaction time.
Embassy Tunis is excellent. How-                                                                     As a result of the consolidation
ever, poor morale in some sections                                                              of the State Department and USIA,
would be ameliorated by better                                                                  the administrative section has taken
team building by the Ambassador                                                                 over administrative functions from
and deputy chief of mission. Staff              Embassy Manama,
                                                                                                the public affairs section (formerly
cohesion suffers from physical sep-             Bahrain (ISP/I-00-07)
                                                                                                the United States Information Ser-
aration of some sections, which the             Bahrain, a tiny island emirate in the           vice). Some public affairs section
construction of the approved new                Persian Gulf, is a vital partner in             FSN personnel should be trans-
office building should largely re-              promoting regional stability and has            ferred, and those who remain in the
solve. The present buildings are                hosted the U.S. Navys Fifth Fleet              section should take over contact list
scattered and inadequate in terms               for over 50 years. It has few demo-             and translation duties. Creation of a
of space and utility and hamper effi-           cratic institutions and no political            junior officer position is necessary
cient operations. Some, but not all,            parties. The Embassy is successful-             so that the post can satisfy Wash-
security concerns have been ad-                 ly promoting U.S. interests. For ex-            ington demands for more political
dressed by the front office. While              ample, with the 1999 accession of a             reporting while supporting Bahrains
                                                new Amir, the Embassy has pressed
                                                for internal political reform. OIG




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                               25 .
           very heavy flow of official U.S. vis-           tion regarding law enforcement and
           itors. Some locally hired expatriate            antiterrorism training programs for
           FSN employees have been receiv-                 the Yemeni Government are excel-
           ing benefits appropriate only to third          lent.
           country national employees; their
                                                                The Ambassador has excellent
           status must be adjusted to bring
                                                           access to government officials to
           their salaries and benefits in line
                                                           advance MPP goals of regional sta-
           with the compensation plan for lo-
                                                           bility, democratization, counterter-
           cally hired FSN employees, at an
                                                           rorism, and economic reform. A
           annual savings to the Embassy of
                                                           successful humanitarian demining
           $80,000.
                                                           program has enhanced military-to-
                                                           military relations. The volume of
                                                           political and economic reporting is
                                                           significantly limited by requirements
           Embassy Sanaa, Yemen                            for reporting officers to manage and
           (ISP/I-00-08)                                   perform liaison tasks for the pro-
                                                           grams of other U.S. Government
           With its location on the southern tip           agencies. There are major vulnera-
           of the Arabian Peninsula and a pop-             bilities in diplomatic readiness and
           ulation larger than any of its neigh-           management controls because of
           bors, Yemen potentially could                   unacceptably long staffing gaps at
           control access to a key international           Embassy Sanaa, particularly in ad-
           strategic shipping link at the mouth            ministrative and security functions.
           of the Red Sea. The United States               Consular programs to reach out to
           thus has an interest in promoting a             the Yemeni-American community
           stable, prosperous Yemen sympa-                 should be expanded. Consular oper-
           thetic to U.S. concerns. Yet, regret-           ations also require a temporary staff
           fully, the scheduled termination of             increase to process accumulated
           all USAID bilateral programs in                 case backlogs.
           September 2000 will reduce U.S.
           leverage on the formulation of Ye-                   The public affairs section is
           mens policies, sending the wrong               straining to continue programs that
           message to a country that is an                 were established in an era of more
           emerging democracy and the poor-                generous staffing. Consolidation of
           est state in the region.                        the USIA and the State Department
                                                           has not affected the conduct of
               Yemens central government                  public diplomacy, but the continued
           does not have effective control over            financial viability of the prestigious
           powerful sheikdoms in the hinter-               Yemen-American Language Insti-
           land, some of which are providing               tute is in jeopardy now that it must
           long-term hospitality to international          conform to Department regulations.
           Islamic extremists. Recent kidnap-              A Department working group is
           pings of Westerners, including                  considering revisions in consolida-
           Americans, and kidnapping attempts              tion guidance.
           on embassy staff have affected
           post morale. Contacts and coordina-




26 .   Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Security and Intelligence Oversight
During this reporting period, OIG conducted the following security over-                        Management of Card
sight inspections, which are summarized in the classified annex to this semi-                   Access Control Systems
annual report: Embassy Rome, Italy and the U.S. Mission to the UN                               (SIO/A-00-02)
Agencies for Food and Agriculture; Embassy Vatican, The Holy See; the
                                                                                                Several organizational elements of
Foreign National Employee Program in Russia; Embassy Dakar, Senegal;
                                                                                                the Departments Bureau of Diplo-
Embassy Abidjan, Cote dIvoire; Embassy Paris, France, and U.S. Mission
                                                                                                matic Security are involved in man-
to the Organization for Economic Cooperation and Development, Paris,
                                                                                                aging card access control systems
France; Embassy The Hague, The Netherlands; Embassy Tallinn, Estonia;
                                                                                                used at U.S. posts abroad. How-
and Embassy Bratislava, Slovak Republic. OIG also conducted a security
                                                                                                ever, no single office or element
evaluation of temporary Embassy Doha Qatar and a followup review at
                                                                                                has been designated with lead
Embassy Lisbon, Portugal.
                                                                                                responsibility for managing those
    Audits were completed on Overseas Telephone Systems Security                                systems. As a result, important poli-
Management, Management of Card Access Control Systems, Overtime for                             cy requirements were not applied,
the Secretarys Detail, Bureau of Diplomatic Security (DS) Management                           or were not adequately applied, in
of Overseas Operations, and Assessment of Department Activities to                              the management of those systems.
Counter Technology Transfer.                                                                    DS could significantly improve the
                                                                                                management of card access control
                                                                                                systems by:
                                                                                                      designating a single office
Overseas Telephone Systems Security                                                             primarily responsible for managing
Management (SIO/A-00-01)                                                                        distinct card access system activi-
                                                                                                ties including system planning, in-
OIG assessed the Departments efforts to reduce the risk of compromise
                                                                                                stallation, administration, and
for operations and national security information discussed or processed at
                                                                                                maintenance;
overseas posts. Telephone security risks at overseas posts have been re-
viewed in numerous prior reports. Overall, this reports findings confirm                             assessing the risks, costs, and
that the Departments ability to protect sensitive information transmitted on                   benefits of using card access con-
telephone systems could be improved. OIG recommended steps the De-                              trol systems before acquiring such
partment should take to improve its telephone systems security overseas.                        systems;
     Department officials generally agreed that overseas telephone security                          acquiring and using only
needed improvement. A key Department concern was that implementation                            those systems approved by DS; and
of the OIG recommendations may not be feasible without a commitment of                               focusing greater attention on
resources.                                                                                      computer security aspects of those
                                                                                                systems.
                                                                                                     DS agreed with the findings and
                                                                                                recommendations and indicated that
                                                                                                the report would be used in improv-
                                                                                                ing the bureaus program for man-
                                                                                                aging card access control systems.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                27 .
Overtime for the Secretarys Detail (SIO/A-00-04)                                           focuses specifically on technology
                                                                                            and technical information with po-
DSs Professional Responsibility staff asked OIG to determine whether the
                                                                                            tential military application. The De-
overtime claimed by the agents of the Secretarys Detail was consistent
                                                                                            partment has policies and programs
with the hours worked. OIG performed a limited review of the time and
                                                                                            that address the overall counterin-
attendance for the Secretarys Detail and concluded that the overtime
                                                                                            telligence threat. However, the De-
claimed was consistent with the hours worked. In addition, supervisors
                                                                                            partments Bureau of Consular
from the Secretarys Detail had properly reviewed all of the timesheets
                                                                                            Affairs administers a visa screening
sampled by OIG. OIG did not note any irregularities and made no recom-
                                                                                            program, Visas Mantis, designed
mendations.
                                                                                            to prevent visas from being issued
                                                                                            to individuals seeking to enter the
                                                                                            United States to violate laws prohib-
                                                                                            iting the export of goods, technolo-
Survey of Bureau of Diplomatic Security                                                     gy, or sensitive information.
Management of Overseas Operations (SIO/A-00-22)
                                                                                                 The Visas Mantis program has
OIG initiated this survey to deter-         say that it will be several years be-           been instrumental in identifying visa
mine whether there are internal DS          fore the system is fully operational.           applicants who might be a concern
structural impediments to monitoring                                                        with respect to illicit technology
                                                OIG suggested that the organi-
post security programs and enforc-                                                          transfer, and has resulted in the de-
                                            zational placement of the Office of
ing standards. Since a number of                                                            nial of visas, useful information for
                                            Overseas Operations in the DS hi-
recent recommendations for chang-                                                           the U.S. intelligence community,
                                            erarchy be reassessed and that a
es in DS management and opera-                                                              and identification of potential visa
                                            more prominent positioning may be
tional concerns are under active                                                            fraud. However, OIG found that
                                            called for to reflect the offices
consideration by the Department,                                                            improvements are needed in the Vi-
                                            standing as the focal point for DS
OIG terminated the audit work on                                                            sas Mantis program. Specifically,
                                            programs overseas.
completion of the survey phase.                                                             the Department should:
     During the survey, OIG saw no                                                               Develop documented guid-
indication of significant material                                                          ance and procedures on the Visa
weakness in DSs Office of Over-            Assessment of                                   Mantis program for U.S. Govern-
seas Operations support of over-            Department Activities to                        ment agencies participating in the
seas security programs. The staff                                                           program,
                                            Counter Technology
is diligent and conversant on the
                                            Transfer (SIO/A-00-31)                               Take action on referrals of
priority issues. DSs banding ini-
                                                                                            potential visa fraud from other U.S.
tiative has allowed identification of       This assessment of the Depart-                  Government agencies, and
posts that could shore up defenses          ments activities to counter illicit
without relocating facilities. DSs         technology transfer was performed                     Develop detailed guidance on
initiative to create senior regional        in coordination with representatives            the list of sensitive technologies
directors positions should also             of the Inspectors General of the                used in screening applicants under
enhance the offices oversight              Departments of Defense, Com-                    the Visas Mantis program.
functions.                                  merce, and the Treasury, and the                    The Department agreed with
    DS has received funding to              Inspector General of the Central                the OIG recommendations, but
establish a Security Standards              Intelligence Agency. The assess-                questioned whether the program is
Tracking System that consolidates           ment is in response to a requirement            worth continuing in its current form
security information, measures              in the National Defense Authoriza-              given the varying levels of support
compliance with security standards,         tion Act for Fiscal Year 2000.                  provided by participating U.S. Gov-
and can be updated on a real-time               The Department does not have                ernment agencies.
basis. However, program officers            a counterintelligence program that



 28 .                                   Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Investigations
                                                Visa Fraud                                      Virginia, Florida, Kentucky, and the
                                                                                                Czech Republic, was engaged in a
                                                In January 2000, OIG opened a joint             conspiracy to profit from the em-
                                                investigation with the Immigration              ployment of unauthorized alien
                                                and Naturalization Service (INS)                workers in the United States.
                                                concerning an FSN investigator em-
                                                ployed by INS at a U.S. Embassy.                     Travel agents/recruiters in the
                                                According to INS, the investigator              Czech Republic worked with indi-
                                                had attempted to extort money in                viduals in the United States to re-
                                                return for processing an asylum pe-             cruit foreign nationals, primarily
                                                tition. The approval of such a peti-            from the Czech Republic and other
                                                tion is part of a process leading to            East European countries, to work in
                                                the issuance of a U.S. visa to the              various unskilled positions in retail
                                                applicant.                                      stores and hotels in the United
                                                                                                States. The recruiters generally
                                                     Based upon evidence developed              helped the foreign nationals obtain
                                                in the investigation, the U.S District          nonimmigrant visitor visas from
                                                Court in Alexandria, Virginia, issued           U.S. Embassies by misrepresenting
                                                a criminal complaint and arrest war-            the true purpose of the travel and
                                                rant for the employee on a felony               by supplying the foreign nationals
                                                charge of attempted extortion. Dur-             with fraudulent supporting docu-
                                                ing an interview after his arrest, the          ments for their visa applications.
                                                employee admitted to accepting                  The foreign nationals then traveled
                                                money for facilitating six asylum               to the United States on nonimmi-
                                                petitions that resulted in the issu-            grant visitor visas, which do not au-
                                                ance of visas. The investigator was             thorize employment. Once in the
                                                terminated from employment and                  United States, many of these for-
                                                subsequently entered a guilty plea to           eign nationals were provided with
                                                the felony charge. The subject re-              fraudulent H1-B visas, which do
                                                mains incarcerated pending sen-                 authorize employment. These fraud-
                                                tencing. (00-034)                               ulent visas were then used to obtain
                                                                                              Social Security cards from the So-
                                                                                                cial Security Administration.
                                                OIG opened a joint investigation                     In February 2000, four Czech
                                                with INS, the Internal Revenue Ser-             nationals who had been living and
                                                vice, and the OIG of the Social Se-             working in the United States en-
                                                curity Administration in August 1999            tered guilty pleas to criminal charg-
                                                based on information that a network             es in U.S. District Court in Norfolk,
                                                of individuals, operating primarily in          Virginia. All four agreed to cooper-
                                                                                                ate in the continuing investigation.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                29 .
    One of the individuals who           titions filed with the government.              national to obtain a Social Security
pleaded guilty to conspiracy to com-     The immigration consultant and oth-             card and to work legally in the Unit-
mit money laundering faces maxi-         ers were receiving fees from the                ed States.
mum penalties of 10 years in prison      aliens.
                                                                                             In September 1999, five Turkish
and a fine of $250,000. The others
                                             After a joint OIG undercover                nationals were arrested in Rich-
who pleaded guilty face lesser max-
                                         operation, interviews with alien cus-           mond, Virginia, on criminal charges
imum sentences. (99-072)
                                         tomers, analysis of records seized in           including visa fraud. In November
                                       the execution of a search warrant,              1999, all five pleaded guilty to re-
                                         and other investigative steps, the              duced charges. Three of these indi-
OIG opened a joint investigation in      immigration consultant and an attor-            viduals were sentenced to time
1995 with INS and the Department         ney were indicted on felony charges             served and agreed to voluntary de-
of Labors OIG based on informa-         of visa fraud, alien smuggling, and             parture from the United States un-
tion that an immigration consultant      conspiracy. Resolution of these                 der INS procedures. The other two
was conspiring with others to de-        charges is pending. (95-099)                    were sentenced to time served and
fraud the H1-B visa program. The                                                         agreed to cooperate with further
                                                             
H1-B program was created by                                                              investigative efforts. (99-067)
Congress to allow workers whose
                                         In July 1999, OIG initiated a joint
skills are in short supply to work in
                                         investigation with the Social Securi-
the United States. The investigation
                                         ty Administrations OIG and INS
developed evidence that the immi-                                                        False Claims
                                         involving the use of fraudulent visas
gration consultant would arrange to
                                         to obtain Social Security cards for
have foreign nationals certified,                                                        An OIG investigation determined
                                         unauthorized aliens. The investiga-
through petitions filed by U.S. cor-                                                     that a Department employee sub-
                                         tion developed evidence that Turk-
porations, as professionals to be                                                        mitted and received payment for
                                         ish nationals, holding Turkish
hired in highly skilled positions. In                                                    fraudulent overtime claims in ex-
                                         passports containing fraudulent H-
many instances, after the aliens                                                         cess of $29,000. During the investi-
                                         2A, H1-B, L-1, and P-3 visas, were
were admitted to the United States,                                                      gation, the employee admitted to
                                         being transported from New York
the original petitioner did not employ                                                   falsifying the overtime claims and
                                         and Pennsylvania into Virginia in
them. They were often employed in                                                        subsequently resigned from the De-
                                         order to apply for and obtain Social
menial positions, rather than the                                                        partment. The former employee en-
                                         Security cards. These types of vi-
professional positions claimed in pe-                                                    tered into a plea agreement to one
                                         sas, if legitimate, entitle a foreign
                                                                                         felony count of theft of government



             Types of Cases*                                                Sources of Allegations*
     Passport & Visa Fraud, 34%
                                                                           Management Employees
     Employee Misconduct, 20%                                                 Requests       13%
                                                                      Other      1 3 %
     Miscellaneous Theft, 17%                                                                     OIG
                                                                      10%
                                                                                                Internal
     False Statements & Claims, 10%                            Hotline 3%                         14%
                                                                         m o u s
     Contract & Procurement Fraud, 5%                          A n o n y t ia l, 3 %
                                                             & on
                                                              C   f id e n             Other
     All Other, 14%                                                                   Agencies
                                                                                        44%

                                                 

    (*Charts reflect combined investigative activities for the Department of State and the BBG.)



    30 .                             Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
                     Geographic Distribution of Investigations*




                          Europe and Canada  10 cases, 11%


                 Domestic
                 50 cases,
                   57%                                         Near East              South Asia
                                                              4 cases, 4%             0 case, 0%
                                                                                                                East Asia and
                                                                     Africa                                        Pacific
                                                                    5 cases,                                    8 cases, 9%
                                    Latin                             6%
                                  America
                                  11 cases,
                                    13%


                                                         Boundary representations are
                                                         not necessarily authoritative.
       (*Reflects combined investigative activities for the Department of State and the BBG.)




property and agreed to make resti-              OIG initiated an investigation based            Falsified Certificates
tution of the stolen funds. The indi-           upon information that the spouse of
vidual was indicted on February 25,             a former Ambassador submitted a                 OIG opened a joint investigation
2000, and the court accepted a                  false voucher for reimbursement                 with the INS based on information
guilty plea on March 14. Sentencing             for damage to items included in a               that an English-as-a-second lan-
is scheduled for May 23. (00-005)               household effects (HHE) shipment.               guage (ESL) school was allegedly
                                                The investigation determined that               facilitating the entry of student pilots
                    
                                                the items the spouse claimed were               into the United States. The school
                                                damaged had been purchased for                  allegedly falsely certified on INS
On October 29, 1999, based on in-                                                               I-20AB forms that the pilots would
                                                an amount significantly less than the
formation developed by the Office                                                               be attending the school. Subse-
                                                value that the spouse claimed they
of Audits, OIG made a recovery of                                                               quently, a student advisor working
                                                were worth. On November 16,
$92,538 from a State Department                                                                 at the school sold falsely certified
                                                1999, the Bureau of Finance and
contractor who billed the U.S. Gov-                                                             I-20AB forms to an undercover
                                                Management Policy (FMP) initiated
ernment for insurance premiums on                                                               agent. Based on this information,
                                                a collection action in the amount of
a policy that did not exist. The con-                                                           simultaneous search warrants were
                                                $1,637, which the spouse subse-
tractor had received approval to ob-                                                            executed at the ESL school and a
                                                quently paid. (99-062)
tain the policy but never obtained it.                                                          related residence.
The contractor claimed that he had
                                                                                                     Pursuant to a plea agreement,
mistakenly billed for the policy.
                                                                                                the student advisor entered a guilty
(99-047)
                                                                                                plea to a one-count information of
                    




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                  31 .
making a false certificate or writing.   official residence at post into an              Enforceability of
On October 20, 1999, the U.S. At-        outgoing HHE shipment. The inves-               Clinton Pledge
torney for the Central District of       tigation determined that the officer
California provided the court docu-      did not remove the property but, be-            OIG initiated an investigation based
mentation for sentencing that oc-        cause the officer neglected to se-              upon information that a former am-
curred on April 20, 1999. The            cure the residence upon departure,              bassador violated the terms of the
individual was subsequently sen-         the items were stolen from the resi-            Clinton Pledge (Executive Order
tenced to 1,300 hours of community       dence. As a result, the officer                 12834) by contacting the Depart-
service work. (94-089)                   agreed to pay $1,125 for the missing            ment and asking for official action
                                         items and other expenses. (00-006)              within 5 years of departure from the
                                                                                         government. The case was referred
                                                             
                                                                                         to the Department of Justice, Civil
                                                                                         Division, for prosecutive consider-
Employee                                 OIG initiated an investigation based
                                                                                         ation, as a test case to determine
Misconduct                               upon allegations that a Foreign Ser-
                                                                                         whether the Executive Order was
                                         vice officer was placing personal
OIG initiated an investigation on                                                        enforceable in civil court. The De-
                                         long-distance telephone calls on an
October 14, 1999, based upon infor-                                                      partment of Justice determined that
                                         office telephone and not reimburs-
mation that a junior Foreign Service                                                     the Executive Order was enforce-
                                         ing the government. The officer ad-
officer awaiting tenure may have,                                                        able but subsequently declined to
                                         mitted that some of the calls, which
while serving as a general services                                                      prosecute the case. (99-048)
                                         were made to another officer, were
officer at an embassy, supervised        in fact personal in nature. On No-
auctions and inappropriately re-         vember 23, 1999, the two officers
tained the proceeds. The OIG in-         reimbursed the government a total
vestigation did not substantiate the     of $800 for the personal calls.                 Theft
allegations. However, as a result of     (99-013)
the investigation, the officer agreed                                                    OIG investigated the matter of a
to pay the embassy $398 for out-                                                         former Marine Security Guard who
standing personal telephone calls.                                                       departed post without paying a debt
The investigation, which included        Administrative                                  for bad checks drafted from his
overseas travel, was completed in        Recovery                                        personal checking account. The bad
just over 120 days, allowing the De-                                                     checks totaled $1,482. They were
partment to consider the employee        As a result of an OIG investigation,            returned to the post for insufficient
for tenure. (99-081)                     it was determined that due to an ad-            funds. Post officials and employees
                                         ministrative error, a former senior-            within the U.S. Disbursing Office
                                       level Ambassador continued to                   made several unsuccessful attempts
                                         receive a Department of State sala-             to recover the funds. OIG located
OIG initiated an investigation on        ry for several months after leaving             the individual upon return to the
November 1, 1999, based upon in-         the Department. After being noti-               United States and facilitated recov-
formation that a Foreign Service         fied by OIG of the continued pay-               ery of the money. (99-084)
officer had placed U.S. Govern-          ments, FMP determined that the
ment property from the officers         Ambassador received $20,601 in
                                         excess salary. On September 23,
                                         1999, FMP notified the Ambassador
                                         of the overpayment and requested
                                         restitution. (99-027)




 32 .                                Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Management                                           On July 15 and July 22, 1999,              contractor had performed no work
Implication Reports                             OIG issued two Management Impli-                on the contract. Subsequently, many
                                                cation Reports to the Bureau of                 of the warehouses the contractor
OIG opened investigations on al-                Consular Affairs (CA) recommend-                was to have worked on were de-
leged thefts of passport fees at two            ing that bureau passport manage-                stroyed, yet the contractor submit-
passport agencies. The first was                ment ensure that all passport                   ted in 1992 a $3.8-million claim with
based upon information that applica-            agencies comply with internal con-              interest to the Navy as wartime ex-
tions paid for at the counter at the            trol procedures regarding the han-              penses with no supporting docu-
passport agency could not be ac-                dling of cash and receipts. It was              mentation. The Navy forwarded the
counted for when the applicants                 further recommended that manage-                claim to the Department of State
called to inquire about the status of           ment ensure that only authorized                contracting officer who authorized
their applications. Although each of            individuals are permitted access to             payment.
the applicants had a receipt, none of           the cashier area. In the latter inves-
the applications could be located in                                                                 In 1993, the contractor received
                                                tigation, based on the agencys par-
the office or in the agencys com-                                                              another Foreign Military Sales con-
                                                ticular needs, the report also
puter system. While the investiga-                                                              tract with the Navy for additional
                                                recommended that the bureau con-
tion could not conclusively identify                                                            shelving; however, the Navy offi-
                                                sider implementing additional inter-
who was responsible for the alleged                                                             cials who administered this contract
                                                nal controls by installing surveillance
thefts, the investigation determined                                                            followed proper procedures. The
                                                cameras to the cashier area at that
that the missing money and applica-                                                             contractor was denied reimburse-
                                                agency. (98-119 and 99-025)
tions had not been detected immedi-                                                             ment and subsequently brought the
ately because receipts had not been                                                           $2-million civil suit against the Unit-
handled according to Department                                                                 ed States, citing in part that, since
regulations. The agency also had                OIG opened a preliminary inquiry                an informal contracting process
failed to follow procedures limiting            based on information alleging that,             used by the Department of State
the number of authorized employees              during the Persian Gulf War, U.S.               had become the usual and custom-
in the cashier office.                          Navy personnel assigned to a Mid-               ary contracting process, they (the
                                                dle East post pressured a Depart-               contractor) should be reimbursed
     The other passport agency                  ment of State contracting office into           for their purchases. The Justice De-
investigation was based upon infor-             administering a 1988-89 contract for            partment advised the Department
mation that two passport applica-               work that was either substandard or             of State that, regardless of the out-
tions and their cash payments were              never performed. The investigation              come of the lawsuit in District
missing. The two missing applica-               determined that the contract was a              Court, the State Department was
tions were for passports that were              Navy Foreign Military Sales con-                not exposed to financial loss.
to have been expeditedwhich,                   tract for shelving systems that in-
according to established procedures,                                                                 As a result of this investigation,
                                                volved the funds of the Middle East             a Management Implication Report
requires the fees to be batched sep-            country affected and there was no
arately from regular applications in                                                            was issued on December 30, 1999,
                                                loss to the U.S. Government. How-               recommending that the Office of
clearly marked boxes. Somewhere                 ever, the contract did become an
in the process, the cash to the cash-                                                           the Procurement Executive advise
                                                issue in a $2-million civil lawsuit             all contracting agents and posts of
ier and the applications to the adju-           against the United States.
dication unit were lost, and the                                                                the importance of complying with
investigation could not identify the                The investigation revealed that             appropriate contracting procedures
individual or individuals responsible.          the original contract was worth ap-             in order to avoid potential pitfalls in
                                                proximately $5 million and that the             any subsequent administrative or
                                                Department of State contracting                 judicial proceeding. (99-PF-092)
                                                officer authorized full payment of
                                                the contract based upon a bogus
                                                Certificate of Final Acceptance pro-
                                                vided by the Navy. At the time, the



Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                  33 .
                                                                                               OIG also previously reported
                                                                                          that on August 14, 1998, one of the
                 FOLLOWUP ACTIONS                                                         individuals former associates en-
                                                                                          tered a plea of guilty to one count of
                                                                                          money laundering but that the sen-
                                                                                          tencing had been postponed as the
Visa Fraud                                                                                individual agreed to cooperate in the
                                                                                          investigation. On August 24, 1999,
OIG opened a joint investigation in December 1997 with the U.S. Customs
                                                                                          the court sentenced this individual to
Service, INS, and the U.S. Social Security Administrations OIG based
                                                                                          12 months of imprisonment and 24
upon information that a foreign national in Garfield, New Jersey, was oper-
                                                                                          months of supervised probation.
ating a business which provided fraudulent H1-B nonimmigrant visas to ille-
                                                                                          The court also ordered the individu-
gal aliens. The investigation developed evidence that the subject, posing as
                                                                                          al to successfully participate in sev-
a financial and legal consultant, was manufacturing fraudulent H1-B visas,
                                                                                          eral health and educational
as well as INS entry stamps and INS employment authorization stamps.
                                                                                          programs before the conclusion of
The subject was inserting them into passports supplied by his customers.
                                                                                          her supervised probation.
The passports containing the fraudulent visas were then used as documen-
tation in support of applications for Social Security cards and drivers li-                   OIG also reported that on Janu-
censes. The subject generally charged $1,800 per customer.                                ary 28, 1999, the other associate,
                                                                                          who had been the employees prin-
    In April 1999, the principal subject of the investigation, a Polish national,
                                                                                          cipal drug supplier, pleaded guilty to
was indicted on three felony charges of conspiracy to commit visa fraud.
                                                                                          one count of distribution of a con-
An associate of the principal subject was also indicted but subsequently
                                                                                          trolled substance and one count of
fled the United States. In September 1999, the principal subject was con-
                                                                                          money laundering. On October 18,
victed on all three counts after a jury trial in U.S District Court, Newark,
                                                                                          1999, that individuals sentencing
New Jersey. In February 2000, he was sentenced to 55 months imprison-
                                                                                          hearing was held. At the hearing,
ment and a $3,000 fine. He will be subject to deportation from the United
                                                                                          following OIG testimony, the drug
States after completion of his sentence. (See OIG Semiannual Report,
                                                                                          dealer was sentenced to 15 years of
April 1, 1998 to September 30, 1998, p.33.) (98-030)
                                                                                          incarceration and 5 years of proba-
                                                                                          tion. (See OIG Semiannual Re-
                                                                                          ports, October 1, 1998 to March
                                                                                          31, 1999, p.29 and April 1 to
Embezzlement                                                                              September 30, 1998, p. 38.) (97-
                                                                                          081)
OIG opened a joint investigation in April 1997 with the Federal Bureau of
Investigation and the Internal Revenue Service based upon information that
an assistant disbursing officer at the Charleston Financial Services Center,
Charleston, South Carolina, may have embezzled Department funds. The
investigation determined that the employee had stolen more than $193,000                  Procurement Fraud
and had used several bank accounts in other names to further this scheme.
                                                                                          Based upon information received
When interviewed by OIG investigators, the employee admitted to using
                                                                                          from an East Asian post, OIG initi-
stolen funds to purchase crack cocaine and subsequently resigned from the
                                                                                          ated an investigation in December
Department and entered guilty pleas to 19 felony counts. On June 2, 1998,
                                                                                          1998 into allegations that an FSN
the subject was sentenced to 21 months imprisonment and 36 months pa-
                                                                                          employee had altered post procure-
role and was ordered to make full restitution. On October 14, 1998, the
                                                                                          ment documents so that the post
former employee was again indicted, on a felony charge of possession of
                                                                                          would pay for services that had not
crack cocaine. OIG previously reported that the employee pleaded guilty to
                                                                                          been ordered and were not re-
this charge on May 4, 1999. On November 29, 1999, the employee was
                                                                                          ceived. An investigative team trav-
sentenced to an additional 96 months (8 years) of imprisonment for posses-
                                                                                          eled to the post in January 1999 and
sion of crack cocaine.



 34 .                                 Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
developed evidence that the em-                 Passport Fraud                                       On August 18, 1998, the U.S.
ployee had engaged in a pattern of                                                              Attorneys Office filed a First Su-
fraud and theft. A local law en-                OIG received information from                   perseding Information against the
forcement agency was apprised of                the Postal Inspection Service that a            Nigerian national containing one
this information and agreed to par-             U.S. passport had been recovered                count each of mail fraud, mail theft,
ticipate in a joint investigation.              as part of a cache of stolen mail               and money laundering. The Nigeri-
                                                located during the execution of a               an national waived prosecution by
    OIG previously reported that on             search warrant on a storage locker              indictment and subsequently plead-
January 20, 1999, the employee was              near Los Angeles, California. The               ed guilty to mail fraud and mail
arrested on criminal charges and a              individual who had rented the stor-             theft. Following a stipulated facts
search warrant was executed on                  age locker, a Nigerian national, was            hearing, the court later found him to
the premises of a local vendor. Dur-            under investigation by postal inspec-           be guilty of the remaining count of
ing an interview with investigators,            tors for theft and financial fraud.             money laundering. On August 19,
the employee admitted to having                 It was determined that the passport             1999, the subject was sentenced to
engaged in fraud and was terminat-              had been mailed from the Los An-                57 months (4 years, 9 months) of
ed from employment effective                    geles Passport Agency to a legiti-              incarceration and 60 months super-
February 5, 1999. A post audit of               mate passport applicant, but had                visory probation and was ordered to
records pertaining to all procure-              not been received by that individual.           pay $329,862 in restitution. This
ment expenditures for the past three            OIG previously reported that the                sentencing report was not available
years developed substantial evi-                Nigerian national was indicted on               for semiannual reporting in Septem-
dence of alterations of invoices, as            February 13, 1998, on ten felony                ber 1999. (See OIG Semiannual
well as the creation of false, inflated         counts, including theft of the U.S.             Report, October 1, 1997, to
invoices. The evidence developed                passport.                                       March 31, 1998, p.30.) (97-002)
indicates that the total amount of
fraudulent payments exceeds
$200,000.
     On November 14, 1999, the
local District Court indicted the                                               HOTLINE
former employee on 24 counts of
forgery and uttering false docu-
ments. The former employee plead-
ed not guilty to the charges. The               The OIG Hotline, operated by the Office of Investigations, is a prompt,
trial is scheduled for May 2000.                effective channel for employees to report incidents of fraud, waste, abuse,
(See OIG Semiannual Report,                     and mismanagement to the Inspector General. Below is a summary of Hot-
October 1, 1998, to March 31,                   line activity for all of the agencies for which OIG has oversight.
1999, pp. 28-29.) (99-015)
                                                           Total allegations received . . . . . . . . . . . . . . . . . . 150
                                                           Held for action within OIG . . . . . . . . . . . . . . . . . 16
                                                           Referred to other offices for action . . . . . . . . . . 110
                                                           Not substantiated  no action necessary . . . . . . 24




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                               35 .
Appendix 1: Investigative Activities
       Workload                                                              Total Judicial Actions                              80
       Cases pending 9/30/99                              94                 Criminal
       New cases opened                                   49                 Prosecutive referrals                            20
       Cases closed                                       56                 Prosecutive declinations                          6
       Cases pending 3/31/00                              87                 Prosecutive dismissals                            1
                                                                             Acquittals                                        1
       Total Administrative Actions                       32                 Indictments 2                                    14
       Admonishments                                       0                 Convictions                                      17
       Counseling                                          0                 Sentencings                                      15
       Curtailment                                         0
                                                                               Time sentenced                         294 months
       Debarments                                          0
                                                                               Time suspended                                  0
       Demotions                                           0
                                                                               Time probation                           26 years
       Reimbursements                                     12
                                                                             Court-ordered fines                          $6,225
       Reprimands                                          0
       Resignations                                        1                 Court-ordered restitutions                   $5,175
       Suspensions                                         0                 Civil
       Terminations                                        4                 Referrals                                             3
       Administrative referrals                           15                 Declinations                                          3
       PFCRA3 referrals                                    0                 Complaints                                            0
       PFCRA declination                                   0                 Judgments                                             0
       PFCRA reimbursement                                 0                 Recoveries                                            0
       Savings                                             0                 Total judgments and recoveries                        0




                                     Administrative recoveries4                      $ 113,150
                                     Judicial recoveries5                             $ 11,400
                                     Total Investigative Recoveries                  $ 124,550



                                     1
                                        This appendix reflects investigative statistics for the
                                   Department of State only. Please see page 51 for investigative
                                   statistics related to BBG.
                                      2
                                        Indictments included formal criminal charges brought against
                                   a subject. The manner in which charges are brought varies
                                   from country to country.
                                     3
                                         Program Fraud and Civil Remedies Act.
                                     4
                                       Includes recoveries from administrative actions, such as
                                   reimbursements and savings.
                                     5
                                       Includes recoveries from judicial actions, including court-
                                   ordered fines and restitutions and civil judgments and recoveries.


                          The statistics and narrative case descriptions of investigative activities appearing
                          in this Semiannual Report to the Congress are the result of reports received from
                          prosecutive and administrative authorities. The final actions may be changed at a
                          later date by individual use of administrative and judicial appeals processes.




36 .                                     Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Appendix 2: Reports Issued
Special Report

00-OIG-001          FY 1999 Emergency Supplemental Appropriations                                    1/00



Office of Audits

00-FM-001           Implementation of the Managerial Cost Accounting Standards                      11/99
00-PP-002           Allegations Regarding Construction of Warehouse/Annex at Embassy Ulaanbaatar    12/99
00-CG-003           Department of State Actions Related to U.S. Funding for the Joint
                    Organization of American States/United Nations Mission in Haiti                 12/99
00-FM-004           Nontax Delinquent Debt12/99
00-PP-005           Selection of Service Providers in the International Cooperative
                    Administrative Support Services System                                           3/00
00-FM-006           International Joint Commissions 1998 Principal Financial Statements             1/00
00-FM-007           Electronic Fund Transfers                                                        2/00
00-CI-008           Department of State Controls Over the Transfer of Militarily Sensitive
                    Technology to Foreign Nationals from Countries and Entities of Concern           3/00
00-CI-009           The Department of States Strategic Planning and Management of Efforts
                    to Reduce Foreign Trade Barriers in the Telecommunications Sector                3/00
00-FM-011           Operations and Expenditures from the Appropriation for Emergencies
                    in the Diplomatic and Consular Service                                           3/00
00-PP-013           Procurement Operations at Embassy Conakry, Guinea                                3/00
00-HR-015           Recruiting Foreign Service Specialists                                           3/00



Office of Inspections

Inspections

ISP/I-00-01         American Institute in Taiwan                                                    11/99
ISP/I-00-02         Embassy Kiev, Ukraine                                                           11/99
ISP/I-00-03         Embassy Manila, Philippines, and the Broadcasting Board of Governors
                    Philippines Transmitting Station                                                 3/00
ISP/I-00-04         Embassy Port-au-Prince, Haiti                                                    3/00
ISP/I-00-05         Embassy Rabat, Morocco, Consulate General Casablanca, and the Broadcasting
                    Board of Governors Morocco Transmitting Station                                 3/00
ISP/I-00-06         Embassy Tunis, Tunisia                                                           3/00
ISP/I-00-07         Embassy Manama, Bahrain                                                          3/00
ISP/I-00-08         Embassy Sanaa, Yemen                                                             3/00




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000    37 .
Office of Security and Intelligence Oversight

Audits

SIO/A-00-01       Overseas Telephone Systems Security Management                                                             11/99
SIO/A-00-02       Management of Card Access Control Systems                                                                  11/99
SIO/A-00-04       Overtime for the Secretarys Detail                                                                        10/99
SIO/A-00-22       Bureau of Diplomatic Security Management of Overseas Operations                                             2/00
SIO/A-00-31       Assessment of Department Activities to Counter Technology Transfer                                          3/00

Inspections

SIO/I-00-03       Embassy Rome, Italy, and U.S. Mission to the UN Agencies for Food and Agriculture                          11/99
SIO/I-00-05       Embassy Vatican, The Holy See                                                                              11/99
SIO/I-00-07       The Foreign National Employee Program in Russia                                                            11/99
SIO/I-00-08       Embassy Dakar, Senegal                                                                                     12/99
SIO/I-00-09       Embassy Abidjan, Cote dIvoire                                                                             11/99
SIO/I-00-15       Embassy Paris, France, and U.S. Mission to the Organization for
                  Economic Cooperation and Development, Paris France                                                           1/00
SIO/I-00-17       Embassy The Hague, The Netherlands                                                                           3/00
SIO/I-00-20       Embassy Tallinn, Estonia                                                                                     3/00
SIO/I-00-26       Embassy Bratislava, Slovak Republic                                                                          3/00

Security Evaluation

SIO/E-00-19       Temporary Embassy Doha, Qatar                                                                                3/00

Moscow Oversight

SIO/M-00-21       Moscow Secure Chancery Facilities Project                                                                    3/00

Followup Review

SIO/C-00-24       Embassy Lisbon, Portugal, and Consulate Ponta Delgada                                                        3/00




Contract Audits

Contractor                                       Audit Number                                           Type
Frederick Ward Associates                        PA-BB-CG-0018                                          Labor Hour Rates
ARCON, Inc.                                      PA-BB-CG-0019                                          Labor Hour Rates
Wiss, Janney, Elstner Assoc.                     PA-BB-CG-0020                                          Labor Hour Rates




 38 .                               Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Appendix 3:1 Savings & More Effective Use of Resources
                                                 Table I
                                 INSPECTOR GENERAL ISSUED AUDIT REPORTS2
                                         WITH QUESTIONED COSTS3


                                                                       Number            (Dollars in Thousands)
                                                                      of Reports Questioned Costs Unsupported Costs


        A.  For which no management decision has been
            made by the commencement of the reporting
            period                                                            11             6,8722                 338
        A1. Adjustment                                                         0                  0                  50
        A2. Adjusted Balance                                                  11              6,822                 388

        B.      Which were issued during the reporting period                  0                    0                  0

        Subtotals (A2 + B)                                                    11              6,822                 388

        C.      For which a management decision was made
                during the reporting period                                    0                    0                  0
                 based on formal administrative or
                    judicial appeal
                (i) dollar value of disallowed costs                           0                    0                  0
                (ii) dollar value of costs not disallowed                      0                    0                  0


        D.      For which no management decision has been
                made by the end of the reporting period                       11              6,822                 388

                Reports for which no management decision
                was made within 6 months of issuance                          11              6,822                 388




        


         1
           The tables in this appendix combine Department of State and U.S. Information Agency data previously reported in
        the semiannual report under separate tables.
         2
             Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight.   .
         3
           Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a
        law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
        of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding
        that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                  39 .
                                        Table II
                        INSPECTOR GENERAL ISSUED AUDIT REPORTS
                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                                    Number                Dollar Value
                                                                                   of Reports           (in thousands)


       A. For which no management decision has been made
          by the commencement of the reporting period                                   6                  1,447

       B. Which were issued during the reporting period                                 0                        0

            Subtotals (A + B)                                                           6                  1,447

       C. For which a management decision was made
          during the reporting period                                                   0                        0

            (i) dollar value of recommendations that were
                agreed to by management                                                 0                        0
                 based on proposed management action
                 based on proposed legislative action

            (ii) dollar value of recommendations that were
                 not agreed to by management                                            0                        0

       D. For which no management decision has been
          made by the end of the reporting period                                       6                  1,447

            Reports for which no management decision
            was made within 6 months of issuance                                        6                  1,447




       


       1
          A recommendation that funds be put to better use is a recommendation by the OIG that funds could be used more
       efficiently if Department management took actions to implement and complete the recommendations, including: reduc-
       tions in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
       guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the opera-
       tions of the Department, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews
       of contract or grant agreements; or any other savings which are specifically identified.




40 .                                    Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Appendix 4:1 Resolution of Reports & Recommendations
                                  P REVIOUSLY R EPORTED S IGNIFICANT A UDIT
                                 R ECOMMENDATIONS 2 P ENDING F INAL A CTION3

          Report Rec. Report Title                                                                                     First
          NumberNumber Recommendation Summary                                                                        Reported


          4-PP-014        Maintenance and Repair of Buildings Overseas                                               3/31/94
                     1. Develop a system to identify and monitor the worldwide backlog of mainte-
                        nance and repair deficiencies, including determining an acceptable level for
                        the backlog and periodically updating the backlog for corrective action
                        taken, additional deficiencies identified, and improved cost estimates.


          5-FM-007        Review of Financial Systems Development                                                    3/31/95
                     2. The Under Secretary for Management review the current alignment of
                        resources and responsibilities for system acquisition and development in
                        the Department and determine the optimal management arrangement for
                        system acquisition and development.


          93-A-34/
          ARR-95-08Grants Management Followup                                                                        3/31/95
                     5. Require monthly reporting requirements on the projects status.
                     6. Ensure that data in the grants system is reconciled with data in other
                        grant-related systems.


          APR-96-07Exchange Visitor Information System                                                               3/31/96
                     3. Determine the feasibility of electronically transmitting J Visa data from
                        sponsor organizations to the EVIS database at USIA.




          


           1
             The tables in this appendix combine Department of State and U.S. Information Agency data previously reported in the
          semiannual report under separate tables.
           2
             Includes audit recommendations reported as significant in semiannual reports prior to September 30, 1999, on which
          Department management has agreed to take corrective action but for which those actions are not yet complete.
           3
             Final action is recorded when a proposed course of action in response to a recommendation has been accepted by OIG
          and completed by management to OIGs satisfaction.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                  41 .
                                  SUMMARY OF A UDIT REPORTS
             WITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS


  Management of Secure Communications (SIO/A-97-15), March 1997
  Summary: OIG made 23 recommendations to the Director General of the Foreign Service and the
           Director of Personnel to require personnel, like IM specialists staff, who hold positions with
           access to bulk quantities of sensitive information to undergo a special counterintelligence
           screen process prior to each assignment. Three of those 23 recommendations remain
           unresolved, which were assigned to the Director General of the Foreign Service.
  Reason Unresolved: The Director General of the Foreign Service has not responded, formally or
            informally to the report and subsequent follow-up inquiries. Therefore, OIG plans to send
            this issue to the audit resolution process.
  To be resolved by: May 2000


  Classified (Red) Mainframe Systems Security (SIO/A-97-02), October 1996
  Summary: OIG made 14 recommendations to the Under Secretary for Management and the Assistant
           Secretary for Administration to establish a security program and plan for the system, to
           address risks found during the audit, and to ensure that responsible officials are identified
           and kept informed about the systems security. The Department is in the process of
           deactivating the classified mainframe system. Four of the 14 recommendations remain
           unresolved, which were assigned to the Under Secretary for Management.
  Reason Unresolved: The Under Secretary for Management has not responded, formally or informally
            to the report and subsequent follow-up inquiries. Therefore, OIG plans to send this issue to
            the audit resolution process.
  To be resolved by: May 2000


  Management of Sensitive Compartmented Information Access (SIO/A-98-49) September 1998
  Summary: OIG made 4 recommendations to the Assistant Secretary for Intelligence and Research
           and the Director General of Personnel to document policy and procedures on how INR will
           process SCI access requests, arbitrate waivers and disputed decisions to include DS and
           the Bureau of Personnel, and develop a reliable process for determining when SCI access
           authorizations terminate. Three of the 4 recommendations remain unresolved, which were
           assigned to the Assistant Secretary for Intelligence and Research. In discussions with
           OIG, INR has advised OIG of its plan to respond to these recommendations.
  Reason Unresolved: INR has not formally responded to these recommendations.
  To be resolved by: May 2000


  International Development Exchange (A-92-24), November 1992
  Summary: OIG made recommendations on questioned costs of $59,497 and accounting system
           deficiencies.
  Reason unresolved: The Department deferred a decision on the questioned costs pending completion
            of OIGs investigation, which was referred to the Justice Department in July 1994.
  To be resolved by: Unknown; case in litigation




42 .                             Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
                                         SUMMARY OF A UDIT REPORTS
                WITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS


          Delphi International Group (A-92-23), December 1992
          Summary: OIG questioned grant costs totaling $253,772, which included costs associated with an
                   OIG investigation. In September 1997, the Department of Justice reached a settlement with
                   Delphi on the investigation, but $117,179 in audit costs remain unresolved.
          Reason unresolved: The Department is seeking clarification and documentation from the grantee.
          To be resolved by:         June 2000

          North/South Center (ARR-94-03), March 1994
          Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in questioned costs,
                   approximately $1 million of which resulted from an inequitable allocation of indirect costs to
                   the Center. The Department of Health and Human Services, which has audit cognizance,
                   established new indirect cost rates.
          Reason unresolved: The Department deferred action on about $480,000 in remaining questioned
                    costs pending further consultation with the Bureau of Educational and Cultural Affairs and
                    awaiting additional information from the bureau.
          To be resolved by:         June 2000


          Delphi International Group (ALR-94-03), March 1994
          Summary: OIG questioned grant costs totaling $202,188, which included costs associated with an
                   OIG investigation. In September 1997, the Department of Justice reached a settlement with
                   Delphi on the investigtion, but $110,147 in audit costs remain unresolved.
          Reason unresolved: The Department is seeking clarification and documentation from the grantee.
          To be resolved by:         June 2000


          International Institute of Wisconsin (CG-96-01), September 1996
          Summary: OIG questioned $46,626 as unallowable or unsupported by the Institute. These costs
                   included airfares for individuals who did not participate in the program, excess working
                   meals, and an unreasonable amount of tickets for sporting events. Also questioned were
                   salary and benefits that were based on budget percentages instead of actual hours worked.
          Reason unresolved: The Department is seeking clarification and documentation from the grantee.
          To be resolved by: June 2000




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                43 .
 Broadcasting Board of Governors


OIG Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    49

Appendix 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              52

Appendix 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            52

Appendix 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           53
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                53

Appendix 4: Resolution of Reports and Recommendations
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           54




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                                                    47 .
OIG Activities
                                                                                 AUDITS



                                                Allegations Regarding the Voice of America
                                                Television Project (00-PP-010)
                                                OIG reviewed March 1999 allegations regarding the VOA Television
                                                Project. The allegations centered on the introduction of a new concept into
                                                VOA television called small format videotechnology or videojournalism.
                                                Essentially, this concept involves providing VOA journalists with small,
                                                handheld camcorders and related equipment so they can record their own
                                                stories without the need of a larger production crew. The allegations were
                                                that: (1) the contractor introducing this concept into VOA was virtually un-
                                                known; (2) the small format concept was untested and inferior to industry
                                                standards, and would thus subject VOA to international ridicule and loss of
                                                credibility; (3) additional television broadcasting to China was unnecessary
                                                and redundant; and (4) the current contract was wasteful and unnecessary.
                                                     OIG found that the first three allegations were not supported and that
                                                use by the International Broadcasting Bureau (IBB) of small format tech-
                                                nology and expanded programming to China appeared to be legitimate IBB
                                                policy decisions that had congressional support. The fourth allegation con-
                                                cerned a negotiated, firm-fixed price contract for technical support for the
                                                VOA Television Project. No evidence was found to support the allegation
                                                that this contract was unnecessary. However, OIG did find that IBB ap-
                                                proved, due to its decision that the need was urgent and compelling, a $3-
                                                million contract ceiling price that was $500,000 (20 percent) above what
                                                the contracting officer concluded was fair and reasonable. OIG found that
                                                IBB failed to prepare an independent government cost estimate prior to
                                                awarding this contract and that the procurement may have been rushed in
                                                order to expend end-of-year funds. OIG also believed that IBBs sole
                                                source justifications for awarding both the current and prior contract for
                                                this technical support were questionable.
                                                     OIG recommended that IBB comply with the procedural requirements
                                                of the Federal Acquisition Regulation when considering whether to exercise
                                                the remaining tasks under the second option year for the contract; ensure
                                                that adequate independent government estimates, when necessary to estab-
                                                lish price reasonableness, are performed in a timely manner on all procure-
                                                ments; remind officials of their responsibilities to ensure that acquisitions




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                       49 .
are adequately planned to avoid rushed end-of-fiscal-year spending; and                 Embassy Rabat,
issue guidance to contracting officers to perform adequate market research              Morocco, Consulate
and/or attempt a competitive procurement prior to approving a sole source               General Casablanca,
procurement. IBB concurred overall with our recommendations.                            and the BBG Morocco
                                                                                        Transmitting Station
                                                                                        (ISP/I-00-05)
                                                                                        During the inspection of Embassy
                           INSPECTIONS
                                                                                        Rabat, OIG reviewed BBGs
                                                                                        Morocco Transmitting Station and
                                                                                        found that it was well managed
                                                                                        and known as a source of innova-
Embassy Manila, Philippines, and Broadcasting                                           tion for other BBG transmitting
Board of Governors Philippines Transmitting                                            stations around the world. However,
Station (ISP/I-00-03)                                                                   our review identified areas where
                                                                                        improvements can be made to fur-
As part of its inspection of Embassy Manila, OIG conducted a limited re-
                                                                                        ther enhance the effectiveness of
view of the BBGs Transmitting Station in the Philippines and found that the
                                                                                        this stations operations. Specifical-
station was well managed and that the Station Manager normally keeps the
                                                                                        ly, OIG recommended that Embassy
Ambassador informed on matters relating to implications for U.S.Philip-
                                                                                        Rabat take steps to ensure that the
pine relations. However, in discussions with embassy officials, OIG noted               transmitting stations Foreign Ser-
a coordination problem between the Embassy and BBGs Office of Affili-                  vice officers receive necessary dip-
ate Programs located in Washington. The Office of Affiliate Programs has                lomatic privileges. In addition, OIG
contracts and agreements with Philippine commercial radio stations to                   recommended that the Embassy
broadcast VOA programs. Often, the affiliates office has difficulty con-               improve the stations administrative
tacting these local stations and requests the Embassy to communicate with               support services, terms, and condi-
these stations. Even though BBG relies on the Embassy for this type of as-              tions under its local guard contract
sistance, it did not consult or coordinate with the Embassy when it recently            and the ability to send and receive
unilaterally renegotiated agreements with a total of 18 Philippine commer-              unclassified cables with the Embas-
cial stations. Because the BBG will continue to require embassy assistance              sy and Washington. OIG also
with the local stations, OIG recommended that in the future BBG coordi-                 recommended that BBG improve
nate with Embassy Manila when contracting with new local commercial                     the stations personnel and staffing
radio stations.                                                                         activities.




                                                 Good Neighbors
        The Tinang site of the Philippines Transmitting Station covers 2,400 acres of land surrounded
        by cornfields and rice paddies. For several years, the site managers have set aside 1,400
        acres of the site for a carefully planned civic action program where the neighboring commu-
        nities can plant rice. Part of the proceeds from the sale of the harvest is used for senior citizen
        programs in the communities. BBG also provides a grant for a state-of-the-art preschool
        operated on the transmitter site for children from the adjacent communities. These projects
        present excellent good neighbor activities and positive public relations programs for the
        transmitting station and its personnel.




 50 .                               Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
   SECURITY AND INTELLIGENCE OVERSIGHT



During this reporting period, OIG conducted the following security over-
sight inspections, which are summarized in the classified annex to this
semiannual report: Office of Cuba Broadcasting (Radio Marti) Miami,
Florida; and the BBG Transmitting Sites in Germany.



                            INVESTIGATIONS



The former USIA Office of Security provided information to OIG which
alleged that an IBB employee brought a female illegal alien into the United
States in exchange for the forgiveness of a $5,000 loan by the aliens hus-
band. It was also alleged that the employee married an undocumented alien
in exchange for $6,000. OIG obtained documentation confirming the mar-
riage and that the employee was married to another woman at the same
time. The investigation also disclosed that the employee had fraudulently
placed a former girlfriend and her children on his government health bene-
fits as his spouse and dependents. The case was declined for prosecution
in favor of administrative action. Pursuant to a written administrative
agreement, on February 25, 2000, the employee received a 9-day suspen-
sion without pay and agreed to repay $15,259 for the fraudulent govern-
ment health care benefits. The agreement also provided for his immediate
dismissal if he becomes involved in any future illegal activity. (98-005)




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000   51 .
Appendix 1: Investigative Activities
                                      Workload
                                      Cases pending 9/30/99                                   2
                                      New cases opened                                        0
                                      Cases closed                                            1
                                      Cases pending 3/31/00                                   1

                                      Total Judicial Actions                                  0
                                      Sentencing
                                       Time probation                                         0
                                       Court-ordered fine                                     0
                                       Court-ordered restitution                              0
                                      Judicial recoveries                                     0

                                      Total Administrative Actions                            1
                                      Suspension                                              1



                        The statistics and narrative case descriptions of investigative activities appearing
                        in this Semiannual Report to the Congress are the result of reports received from
                        prosecutive and administrative authorities. The final actions may be changed at a
                        later date by individual use of administrative and judicial appeals processes.




Appendix 2: Reports Issued
Office of Audits
00-PP-010        Allegations Regarding the Voice of America Project                                                               3/00



Office of Security and Intelligence Oversight

SIO/I-00-10      Office of Cuba Broadcasting (Radio Marti), Miami, Florida                                                      12/99
SIO/I-00-25      Broadcasting Board of Governors Transmitting Sites in Germany                                                 12/99




 52 .                                  Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Appendix 3:1 Savings & More Effective Use of Resources
                                                                       Table I
                                                        INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                                                WITH QUESTIONED COSTS
                                                                                    Number            (Dollars in Thousands)
                                                                                   of Reports Questioned Costs Unsupported Costs

                       A.   For which no management decision has been made
                            by the commencement of the reporting period                   1                   98                    0

                       B.   Which were issued during the reporting period                 0                    0                    0

                            Subtotals (A + B)                                             1                   98                    0

                       C.   For which a management decision was made
                            during the reporting period                                   1                   98                    0

                             based on formal administrative or
                                judicial appeal
                            (i) dollar value of disallowed costs                          0                    0                    0
                            (ii) dollar value of costs not disallowed                     0                    0                    0


                       D.   For which no management decision has been
                            made by the end of the reporting period                       0                    0                    0

                            Reports for which no management decision
                            was made within 6 months of issuance                          0                    0                     0


                                                                   Table II
                                                    INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                             WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                                  Number                Dollar Value
                                                                                                 of Reports           (in thousands)

                       A.   For which no management decision has been made
                            by the commencement of the reporting period                               0                        0

                       B.   Which were issued during the reporting period                             0                        0

                            Subtotals (A + B)                                                         0                        0

                       C.   For which a management decision was made
                            during the reporting period                                               0                        0

                            (i) dollar value of recommendations that were
                                agreed to by management                                               0                        0
                                 based on proposed management action
                                 based on proposed legislative action

                            (ii) dollar value of recommendations that were
                                 not agreed to by management                                          0                        0

                       D.   For which no management decision has been
                            made by the end of the reporting period                                   0                        0

                            Reports for which no management decision
                            was made within 6 months of issuance                                      0                        0

                   1
                       The data in this appendix was included under the U.S. Information Agency information in the previous semiannual report.




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                                        53 .
                                  SUMMARY OF A UDIT REPORTS
             WITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS




       Radio Marti Policies and Procedures (99-IB-010) June 1999


       Summary:     OIG recommended that the Broadcasting Board of Governors establish policies
                    and procedures so that future evaluation panels can assess whether the foreign
                    policy requirements of the Voice of America Charter and the 1994 International
                    Broadcasting Act are being met.


       Reason Unresolved: BBG disagrees with the recommendation and believes there are suffi-
                  cient mechanisms in place to ensure that broadcasts satisfy statutory require-
                  ments. In addition, BBG commented that any effort to define policy goals through
                  which foreign policy responsiveness can be measured would set a dangerous
                  precedent for international broadcasting and potentially impede the broadcast
                  entities in gathering, writing, and delivering the news objectively. BBG is required
                  to submit a report to the Congress on how it will respond to OIG recommenda-
                  tions on Radio Marti. OIG is reserving its judgement on resolution of the recom-
                  mendation until it reviews how the BBG responds to the recommendation in the
                  report due to the Congress by March 31, 2000.


       To be resolved by: June 2000




54 .                            Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
Abbreviations
                                           AIT       American Institute in Taiwan
                                          BBG        Broadcasting Board of Governors
                                            CA       Bureau of Consular Affairs
                                            DS       Bureau of Diplomatic Security
                                          ESA        Emergency Supplemental Appropriations
                                           ESL       English-as-a-second language
                                          FMP        Bureau of Finance and Management Policy
                                           FSN       Foreign Service national
                                          HHE        household effects
                                           IBB       International Broadcasting Bureau
                                       ICASS        International Cooperative Administrative Support Services
                                            IJC      International Joint Commission
                                           INS       Immigration and Naturalization Service
                                          OAS        Organization of American States
                                          MPP        Mission Performance Plan
                                           OIG       Office of Inspector General
                                       USAID         U.S. Agency for International Development
                                        USEA         U.S. Employees Association
                                         USIA        United States Information Agency
                                         VOA         Voice of America




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000               55 .
                                    INDEX OF REPORTING REQUIREMENTS
                              INSPECTOR GENERAL ACT OF 1978, AS AMENDED


     REQUIREMENT              SUBJECT                                                               PAGE NUMBERS

     Section 4(a)(2)          Review of legislation and regulations                                           6-8
     Section 5(a)(1)          Significant problems, abuses, and deficiencies                          13-28, 49-50
     Section 5(a)(2)          Significant recommendations for corrective action                       13-28, 49-50
     Section 5(a)(3)         Prior significant recommendations unimplemented                                   41
     Section 5(a)(4)          Matters referred to prosecutive authorities                                29-35, 50
     Section 5(a)(5)          Information or assistance refused                                             None
     Section 5(a)(6)          List of reports issued                                                        37, 51
     Section 5(a)(7)          Summaries of significant reports                                        13-28, 49-50
     Section 5(a)(8)          Audit reportsquestioned costs                                                39, 52
     Section 5(a)(9)          Audit reportsfunds to be put to better use                                   40, 52
     Section 5(a)(10)         Prior audit reports unresolved                                                42, 53
     Section 5(a)(11)         Significant revised management decisions                                      None
     Section 5(a)(12)         Significant management decisions with which OIG disagreed                     None




Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000                    57 .
                Summary of OIG Accomplishments


       Financial Results:
       Questioned costs
          Issued during the reporting period                                $         0
          Management decision during the reporting period                   $    98,000
       Recommendations for funds to be put to better use
          Issued during the reporting period                                $          0
          Management decision during the reporting period                   $          0
       Investigative recoveries                                             $ 124,550

       Investigative Results:
       Cases opened                                                                   49
       Cases closed                                                                   57
       Judicial actions                                                               80
       Administrative actions                                                         33
       Hotline and complaint activity                                                150

       Reports Issued:
       Audits                                                                         15
       Inspections                                                                     8
       Security and Intelligence Oversight reviews                                    25
       Contract audits                                                                 3




                    Pictured on front cover is the U.S. Embassy
                    compound in Sanaa, Yemen. See the nar-
                    rative on the inspection report of Embassy
                    Sanaa on page 26. Photo by Richard V. Long




60 .                 Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000
                                              Requests for additional copies of this
                                             publication should be addressed to:

                                                    Office of Inspector General
                                                    U.S. Department of State
                                                    OIG/PPM/RR, Room 810
                                                    1700 North Moore Street
                                                    Arlington, VA 22209




                                   Department of State Publication 10651
                                                  Office of Inspector General
                                                      Released May 2000


Office of Inspector General Semiannual Report to the Congress, October 1, 1999, to March 31, 2000   61 .
